<html>
<title> - DEPARTMENT OF THE INTERIOR BUDGET</title>
<body><pre>[Senate Hearing 113-102]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-102

 
                   DEPARTMENT OF THE INTERIOR BUDGET

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

    REVIEW PROGRAMS AND ACTIVITIES OF THE DEPARTMENT OF THE INTERIOR

                               __________

                              JUNE 6, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
85-374                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Jewell, Hon. Sally, Secretary, Department of the Interior; 
  Accompanied by Hon. David J. Hayes, Deputy Secretary, 
  Department of the Interior.....................................     6
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     4
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    45

                              Appendix II

Additional material submitted for the record.....................    69


                   DEPARTMENT OF THE INTERIOR BUDGET

                              ----------                              


                         THURSDAY, JUNE 6, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:15 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. Good morning. Senator Murkowski is on her way 
and because we have votes at ten o'clock, we're going to try 
and move everything quickly this morning.
    I want to thank Senator Murkowski and Senator Barrasso. We 
always do these kinds of matters in a bipartisan way. I want to 
thank my colleague.
    This morning we're going to review the programs and 
activities in the Department of the Interior. The hearing marks 
the first time that Secretary Jewell--I like those words, 
Secretary Jewell--has testified before the committee since her 
confirmation in April. So I'd like to welcome her back to the 
committee. We look forward to her statement in just a few 
minutes.
    I believe this hearing also marks the final time that 
Deputy Secretary David Hayes will appear before the committee 
before he leaves office later this month. I'd like to extend my 
appreciation to him for his long career in public service and 
advocacy as Deputy Secretary, and especially his work over the 
past 4 and a half years in his second tour of duty with the 
Department.
    I want to just take a minute to highlight a few provisions 
in the Department's current budget proposal. Overall, I'm 
pleased with the Administration's proposed budget for the 
Department of the Interior which is $11.7 billion, nearly a 3 
percent increase over the 2013 continuing resolution level. 
Budgets are places where you've got to make tough decisions.
    The Administration, in many particulars, has done a 
thoughtful job of putting scarce dollars in the right places. 
The President has made the conservation of our public lands 
through our national parks, policies encouraging outdoor 
recreation, and support of the Land and Water Conservation Fund 
high priorities. I strongly support the President's commitment.
    Outdoor recreation, as we have talked about in this 
committee, is major, major business and a jobs producer for our 
country. Studies have found that Americans spend $646 billion 
each year on outdoor recreation. That equates to over 6 million 
direct American jobs. Secretary Jewell understands a whole lot 
about this because she's been living and breathing it in the 
private sector and is acutely aware of the link between 
conservation, jobs, and economic growth.
    It's encouraging the Administration has proposed partial 
mandatory funding for the Land and Water Conservation Fund in 
fiscal year 2014 and intends to see full mandatory funding 
starting in 2015. I look forward to seeing the legislative 
proposal to authorize full and permanent annual funding for 
this program. LWCF is an essential component in the country's 
effort to conserve lands and provide areas for people to get 
outside and recreate.
    With respect to our national parks, I've been exploring new 
ways to provide necessary funding for our parks. I've talked 
about this at length with the National Park Service Director 
Jarvis. I'm going to discuss it further with the Secretary this 
morning because, clearly, with the enormous challenge presented 
as a result of sequestration, we ought to be looking at fresh 
ideas; creative, new ideas; ideas that bring in the private 
sector and look to public/private partnerships to do a 
responsible job of addressing the needs of our parks in a 
fiscally challenging environment.
    Turning to energy issues, the Department plays an important 
role in providing energy resources for the country. Significant 
strides were made during Secretary Salazar's tenure on the 
siting of renewable energy projects on public land. The 
Department, just this week, announced its first lease sale for 
renewable energy projects on the OCS. Secretary Jewell, we're 
going to encourage you to continue those efforts in the area of 
renewable energy.
    I'm also pleased to see strong budgetary support for the 
Department's new energy frontier initiative that promotes 
responsible energy development on our public lands.
    As the Secretary knows--and colleagues, we talked an awful 
lot about it here we're especially concerned about the 
management of our forests. As the length and severity of both 
drought and wildfire seasons have increased year after year. 
I'm one who believes that certainly a measure of this is due to 
climate change.
    It's clear that Federal forests are in poor health, making 
them more vulnerable to catastrophic forest fires. As we 
discussed just a couple of days ago in this room, I am troubled 
that the President's budget request includes nearly a 50 
percent reduction in hazardous fuels treatments for the 
Department of the Interior. As we discussed on Tuesday, you 
were not here Secretary Jewell, but I'm sure you have gotten 
the report. We're anxious to work with you, Secretary Vilsack, 
and we're going to make sure that the folks on the Office of 
Management and Budget side are part of these discussions as 
well to get a new, big picture effort to improve our policies 
with respect to fire budgeting.
    Finally, I'm grateful the Administration's budget proposes 
to extend the Payments in Lieu of Taxes program as a permanent 
program at the full funding level in fiscal year 2014. The 
Secretary knows how strongly we feel about the Secure Rural 
Schools program. That, of course, appears in the Forest Service 
budget. We also know that there's a very important component 
that is run by the Bureau of Land Management especially for the 
O&C lands.
    I'll be working on legislation to address both the short 
term reauthorization of these programs and long-term funding 
for counties as well as jobs from increased forest management. 
On that point, we appreciate the proposed budget increase of 
1.8 million in the O&C forest management program to increase 
the volume of timber offered for sale and for other forestry 
work. This is of enormous importance to Oregon.
    As the Secretary knows, we're focused on increasing the 
harvest. Let me underline that, increasing the harvest on O&C 
lands. I've recently released a framework for legislation to 
make that happen. I look forward to working with the 
Administration, with colleagues on both sides of the aisle, and 
making it a bicameral effort with the House of Representatives 
as well.
    With that, I'd like to recognize my colleague, Senator 
Murkowski, for any comments that she'd like to make. I so 
appreciate the chance to work on these issues in a bipartisan 
way and welcome my colleague's remarks.
    [The prepared statement of Senator Landrieu follows:]

    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator From 
                               Louisiana

    Mrs. Jewell, I want to begin by thanking you for taking the time to 
appear today to discuss the Department of the Interior budget for 2014.
    I take great interest in the priorities laid out in the budget for 
several reasons-it directly funds and provides program support for the 
5 National Parks, 1,346 listings on the National Register of Historic 
Places, and 24 National Wildlife Refuges in my state.
    This budget is also an important indicator of how the 
Administration intends to proceed on several issues vital to my state 
and to our nation, particularly an issue that I am strongly supportive 
of-domestic oil and gas production. Specifically, I want to focus on 
the portions of this budget that deal with oil and gas revenues and 
permitting.
    The first thing that I notice in your budget proposal is funding 
for the Land and Water Conservation Fund-beginning with a total of $600 
million requested through appropriations and mandatory funding for 
2014, and a full $900 million beginning in 2015.
    Now, let me say first that I am a supporter of some of the things 
that the LWCF does-however, I take issue with this program, which 
benefits primarily Western states, receiving full funding-taken from 
oil and gas production off the shores of my state, Texas, Alabama and 
Mississippi-while those states paying for the program continue to 
receive nothing from that production.
    It's not as though interior states do not produce revenues through 
conventional energy production-in 2012, they produced $4.5 billion, and 
have sent $61 billion since 1950. However, they have kept 50% of that 
money-to spend on schools, roads, environmental protection, however 
they see fit.
    Now compare that to coastal states-in 2012, they sent nearly $7 
billion, and kept nothing. Now, before those coastal states see a 
penny, we are taking nearly $1 billion of those revenues and sending it 
to states that already keep 50% of their energy revenues.
    Despite my support for some aspects of the LWCF, I have serious 
problems with continuing to direct oil and gas revenues away from the 
states that produce them, particularly when they could be put to good 
use protecting the environment in those very states.
    For instance, my state loses one football field every hour of every 
day to coastal erosion-erosion that could be stopped if we received 
some portion of the revenues from the oil and gas production occurring 
just off our shore.
    In my state, any money that we receive is directed by our 
constitution to be used for coastal protection. I would think that this 
environment is just as important to protect as the lands that benefit 
from LWCF.
    I also see that the Bureau of Ocean Energy Management (BOEM) and 
Bureau of Safety and Environmental Enforcement (BSEE) are receiving 
increases of $9 million and $25 million, respectively.
    One of the things I hear most often is that while producers do not 
have issue meeting the very high standards of safety that we place upon 
them, they are hampered by long wait times for permit approvals and 
inspections-both things which are managed by these agencies.
    While I recognize that we ask quite a bit from these bureaus-for 
instance, the BOEM manages 6,686 active oil and gas leases, spread over 
36 million acres, while BSEE conducts over 21,000 inspections per year-
I would hope that these additional funds will be used to speed approval 
of permit applications and reduce the wait for inspections-both of 
which are currently a massive hindrance for producers.
    I also notice that you have made improvements in the offshore 
permitting arena. You note that BOEM has seen a 35% decline in the time 
required to approve production plans from Oct. 2010 to Oct. 2012, while 
BSEE has seen a 37% decrease in the time needed to issue permits in 
roughly that same time.
    I also note that over issuance of permits has increased to pre-
Macondo levels.
    While these are encouraging, I would point out that the reductions 
in time are compared to the worst period in history for offshore 
development, and that the time needed to receive these approvals is 
still far too long-I have heard from some companies that all told it 
can take nearly a year.
    I also notice that you point out a 40% improvement in the time 
needed to issue permits for onshore development from 2006 to 2012. I 
applaud this move in the right direction.
    However, compare this to the amount of time needed to receive a 
permit for production on private land-land that in many cases directly 
abuts Federal land-the wait there is typically between 4 and 6 days. 
Or, to put it more simply, one work week.
    I am pleased to note that you also have recently announced the 
first competitive lease sale for offshore renewable energy. I welcome 
any increase in domestic energy production, but am still concerned for 
the lack of any system to share the revenue from this new production 
with the states that support it.
    Secondly, I would like to talk about the Bureau of Land 
Management's (BLM) Wild Horse and Burro Program. Yesterday, the 
National Academy of Science (NAS) published its report on the BLM wild 
horse and burro management program. The report offered sharp criticism 
of many of BLM's management strategies. BLM management strategies must 
change to better serve the public, improve the lives of America's wild 
horses and burros, and get BLM back on track to fiscal sustainability.
    While I support investment in research and fertility control, I am 
concerned about the number of animals being removed from the range. 
This concern was corroborated by NAS in its report. The BLM has only 
been able to adopt about 3,000 wild horses and burros per year. 
Considering the high costs of both short-term and long-term holding and 
the 40,000 horses already in BLM holding, we should not be removing a 
number greater than the number of animals that can realistically be 
adopted. As I'm sure you are aware, if the ongoing expenses associated 
with maintaining tens of thousands of horses in long-term holding 
facilities are not addressed, BLM is on a fiscally unsustainable path.
    Mrs. Jewell-Again, thank you for appearing today. I recognize that 
you do not directly control the distribution of revenues from offshore 
oil and gas production, and that the systems for oil and gas permitting 
were in place before your arrival, but I would hope that you will be 
willing to help me address these issues, particularly the glaring 
inequality between onshore and coastal states as we move forward.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome, Madame 
Secretary, Mr. Hayes. Good to see both of you.
    Madame Secretary, first I want to thank you for your 
commitment that you have made as it relates to King Cove. The 
Director of Indian Affairs, Mr. Washburn, is going to be 
visiting King Cove in late June. The commitment that you have 
made to visit in August is one that, again, I appreciate. I 
look forward to joining you on that trip.
    I don't want to belabor this point. But I am looking 
forward to this visit for a number of reasons.
    First and foremost, to introduce you to my constituents.
    I think you know how strongly I feel. How strongly the 
members of the Alaska delegation feel about this road that we 
have been talking about. This ten mile, single lane, gravel, 
non-commercial use road that would help provide for essentially 
emergency access for the residents of King Cove to an all 
weather airport.
    So we thought we had reconciled that in the 2009 Omnibus 
Act. It's not done yet. But I want to work with you to see that 
we finally and fully resolve this fairly for the citizens of 
King Cove.
    I do have a number of questions to ask today. I know that 
we're going to have some votes that are going to interrupt. But 
I do hope that we will have a chance to have further discussion 
about some of the things that I find really timely for us right 
now.
    One that I want to bring up is the situation that we have 
with our legacy wells up in the National Petroleum Reserve. My 
statement has been that I think that the Department is 
presiding over an environmental disaster within the National 
Petroleum Reserve and that this has to be addressed. It has to 
be remedied.
    We have more than 100 wells that were drilled by the 
Federal Government. Then they walked away. They abandoned them.
    These legacy wells, as they are referred to, are full of 
contaminants that pollute the environment. The Federal 
Government has all but abandoned the responsibility to clean up 
after itself. BLM's annual budget has, for many years, 
contained a base funding of only about $1 million for cleaning 
up these wells. Yet the last two sites cost the agency $2 
million each to remediate.
    So if we keep it up at this pace it's going to be more than 
100 years to clean up the mess that the Federal Government 
participated in. As I have told you, Madame Secretary, in 
person and in recent hearings, it's categorically unacceptable. 
So is the Administration's proposal to use Alaska's share of 
future NPRA revenues for remediation.
    I met with the Mayor of the North Slope Borough, Charlotte 
Brower as well as others several weeks back. I know that you 
had a chance as well. I have a copy of a letter from the Mayor, 
from our Commissioner of Natural Resources, from the President 
of ASRC and the President of the Inupiat community on the North 
Slope that I would like to have included as part of the record.
    The Chairman. Without objection, so ordered.
    Senator Murkowski. Thank you, Mr. Chairman.
    A related concern is the pattern of falling production on 
Federal lands. It's true that our Nation is in the midst of an 
historic oil and gas boom. But it's also true that production 
on Federal lands is in trouble.
    Contrary to some of the statements, the rhetoric that we've 
heard, oil production from the Federal estate actually fell 5 
percent last year after falling by even more than that in 2011. 
Natural gas production from the same Federal areas, meanwhile, 
is in virtual freefall, down 8 percent last year and down 23 
percent since 2009. The fact of the matter is that America's 
energy boom is happening in spite of Federal policies that 
stymie our production.
    We should be opening new lands to development.
    Making sure that permits are approved on time and 
preventing regulation and litigation from locking down our 
lands.
    If anyone's looking for a place to start I'll invite you to 
look to Alaska.
    I also want to very briefly mention before I conclude, Mr. 
Chairman, this sue and settle tactic that the Department has 
engaged in to enforce the Endangered Species Act. Sue and 
settle, in my view, is alarming. With decisions now due on 
hundreds of species the economic consequences could be 
considerable.
    Madame Secretary, I recognize that you have a unique 
background to sit before us as the Secretary of the Interior, 
background in the oil and gas industry, in the private sector, 
in the conservation community. I think this is all the right 
mix. I welcome you in this position.
    You have promised to bring stakeholders together to help 
solve problems to be that convener. We need that. Again I 
welcome it.
    I'm hopeful that you will bring that fresh perspective to 
help us move through some of these long standing stalemates. I 
look forward to working with you. Thank you for being here this 
morning.
    The Chairman. Madame Secretary and colleagues, here's where 
I think we are with the votes at ten. If the Secretary takes 10 
minutes or so, if she's comfortable with that, we could have 
each Senator who is present here get 5 minutes worth of 
questioning in before the vote. It will be tight, but if 
colleagues find that's acceptable, let's give that a try.
    Secretary Jewell, welcome.

 STATEMENT OF HON. SALLY JEWELL, SECRETARY, DEPARTMENT OF THE 
INTERIOR; ACCOMPANIED BY HON. DAVID J. HAYES, DEPUTY SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Secretary Jewell. Thank you very much, Mr. Chairman and 
Ranking Member Murkowski, other members of the committee. I 
appreciate you being here today.
    Congratulations on grandparenthood, Senator Franken. That's 
pretty exciting. I'm looking forward to that day.
    No pressure on my kids, though.
    [Laughter.]
    Senator Franken. I think there should be pressure on them.
    [Laughter.]
    Senator Franken. Put that in the record.
    [Laughter.]
    Secretary Jewell. I want to begin by echoing comments of 
Chairman Wyden on the colleague to my left, David Hayes, has 
been an enormous help to me. But more importantly an enormous 
help to the American people in his service to this country 
through the Department of the Interior. It is very helpful to 
me, certainly today, to have him beside me. But more 
importantly, he has been very generous with his wisdom and his 
experience.
    I'm going to miss him terribly. But I know he's only a 
phone call away and I'll make sure I have a hot line right to 
his office as he goes to support students at Stanford 
University and the communities through the Hewlett Foundation. 
So we will miss him. But I'm very happy he's with me today.
    The Chairman. Well said.
    Secretary Jewell. I want to thank you for inviting me to 
appear before the committee. I have learned a lot in these 7 
and a half weeks on the job. I've been to many, many places 
around the country, many of your States. So what I want to do 
is just organize my thoughts into a few broad categories.
    I want to start with energy, on shore. Onshore oil 
production on public lands is actually at its highest level in 
over a decade. The amount of producing acreage continues to 
increase. I'm very happy, Ranking Member Murkowski, to provide 
you with some statistics that are a little different than the 
comments that you just referenced in terms of oil production.
    I have looked at leasing reforms that the BLM has put in 
place. They changed them in 2010. We've actually had the lowest 
number of protests on lease sales on BLM lands in 10 years. So 
we're making progress there.
    I know the team is working hard on reducing the time for 
permitting and approval of new projects. That will be 
facilitated through automation. Sequestration has impacted that 
a bit. But we're still committed to getting that done.
    I also want to reference the hydraulic fracturing rule that 
we released just a short while ago with the 30-day comment 
period. Lots of comments have been made on that rule, 177 
thousand of them since the first rule was put in place. We 
changed it significantly.
    One of the consistent things I've heard is a request for 
more time. So I'm announcing right now that we're going to give 
an extra 60 days to that comment period on the hydraulic 
fracturing rule. So rather than expiring here in a week or two, 
it will have another 60 days on top of that. I think that will 
give ample time for people to express their views on it. But we 
do need to get on with this regulation that's been over 30 
years in place and technology has moved forward.
    I also want to say that Alaska, of course, is an important 
component of our Nation's energy strategy. The plans that we 
have for the National Petroleum Reserve Alaska provide access 
to over 70 percent of the oil potential there. It also supports 
infrastructure needs but recognizes the importance of providing 
protection for vital subsistence habitat like Teshekpuk Lake 
which certainly Ranking Member Murkowski is very familiar with.
    On the offshore side, sorry Senator Landrieu just stepped 
out. I've been out on oil rigs and oil production platforms. 
Visited a deep water floating rig, which turns out just a few 
weeks after I visited had a major discovery in the Gulf of 
Mexico. It's a very substantial project and something that is 
growing in development.
    I also went to a production platform from Chevron and saw 
that how the technology has evolved since I was in the industry 
and frankly, how it has also stayed the same in many ways.
    In April we announced the proposed notice of sale for lease 
sale 233 which will make available 21 million acres offshore 
Texas which will be the third sale in the current 5-year 
program.
    We've also implemented key reforms that reduce the time for 
review of exploration and development plans for deep water 
drilling in the Gulf of Mexico. I will say there's actually now 
more floating deep water rigs operating in the Gulf than prior 
to the Deep Water Horizon spill. I think it's something close 
to a 25 percent increase over what was happening prior to that 
activity.
    Our Bureau of Ocean Energy Management has begun a 
programmatic environmental impact statement to support 
assessment of resource potential off the mid and south Atlantic 
and that is continuing.
    On the renewable side, as Chairman Wyden mentioned, we have 
a critical role to play in renewable energy and particularly in 
fulfilling the President's goal of doubling renewable 
electricity generation by 2020 on public lands. As an overseer 
of those lands I'm pleased to say that since 2009 we've 
authorized 42 renewable energy projects on public lands. That 
has the potential to produce electricity for more than 4.2 
million homes.
    On the offshore side, the Bureau of Ocean and Energy 
Management just issued a notice that we'll have our first ever 
competitive lease sale off the coast of Rhode Island and 
Massachusetts with another one to be held offshore Virginia 
this year. That's about 278 thousand acres and could produce 
electricity to power 1.9 million homes.
    Now I want to shift gears to Federal lands and reference 
something Chairman Wyden mentioned which is the National Park 
Centennial. It's coming up in 2016. I hope that you will all 
join me in making sure that we take this milestone seriously 
and engage the American public more in the support of our 
national parks, but also broadly, our public lands.
    Besides being out in a number of national park sites, I 
have also joined with young people in several places. One at 
City Park in Portland, Oregon and another in Jamaica Bay and at 
Gateway National Recreation Area where we were working with 
shovels and in the case of the park in Oregon removing evasive 
species. In the case of New York City, shoveling sand that was 
delivered by Hurricane Sandy in areas where it wouldn't have 
been previously, most importantly engaging young people in 
conservation and building a connection to those lands that will 
stay with them forever.
    This 21st century Civilian Service Corps is listening and 
learning from the Civilian Conservation Corps, but doing it in 
the form of public/private partnerships again, referencing 
Chairman Wyden's comments. That is a great lesson of how we 
connect people to public lands in a way that stays with them 
forever. I hope that you will join me in supporting more of 
those kinds of programs.
    As the Chairman mentioned we, in our budget, are looking 
for mandatory funding of the Land and Water Conservation Fund 
over a 2-year period. Those funds have been used to support 
every single county across the United States. Very, very 
important program that has made a big difference on a local 
level, but also a big difference on a national level. So we 
hope you'll support us there.
    As the Chairman mentioned we're committed to ensuring 
multiple uses on our public lands. So they support the 
resources and the opportunities important to Americans. The O&C 
lands that the Chairman mentioned, we're very committed to 
supporting sustained yield with the BLM and working closely 
with the folks from Oregon and California on that.
    One of the things that you're keenly aware of is our 
commitment to wildland firefighting. The 2013 season is 
unfortunately off to a hot start. You've seen fires in 
California, New Mexico and Arizona. This is early. It looks 
like it could be a severe fire season.
    Our ability to fight those fires is certainly impacted by 
sequestration to some degree, particularly our ability to 
reduce hazardous fuels and to remediate after fires. But we're 
working in a way that is so cooperative across agencies to do 
the best job that we can.
    I visited Boise, the Interagency Fire Center, along with 
Senator Risch. We saw what's happening there. I think it's very 
encouraging the way people work together without regard to 
agency. But it's a big issue and something that we'd appreciate 
your support and help in addressing over a longer term basis.
    Last I want to talk about water. Water, as Chairman Wyden 
takes a drink, it's critical to our lives. But it is under a 
lot of pressure from population growth and a changing climate. 
I want to give a particular nod to my colleague here, David 
Hayes, also Mike Connor, Commissioner of the Bureau of 
Reclamation and Ann Castle, Assistant Secretary for Water and 
Science.
    They're doing a really great job of convening people 
together to address these really, really, significant issues: 
Providing leadership to communities as we address the competing 
demands for water, the need to increase water availability, 
restore watersheds, and to resolve conflicts that have been out 
there for a long time.
    So through water conservation, water smart is the program 
that we call the best drop of water that we don't need is the 
one we don't use. We certainly played an important role in 
finding better ways to stretch existing water supplies and 
highlight best practices that are out there that everyone can 
learn from.
    To wrap up I want to just say that sequestration is and 
continues to be an enormous frustration. As a business person 
you would never run a business the way we are required to run 
government with sequestration. I know that budget times are 
tight. We're committed to being very thoughtful about the money 
we spend.
    But doing it across the board in programs that are 
important to all of you is not a sensible way to run our 
business. We've frozen hiring. We've done furloughs in some 
cases. We have had to cut across every line item. Some of those 
line items are very important to all of you. So I ask for your 
support in getting us past this sequestration period and on to 
a much more rational budget climate.
    With that, I look forward to taking your questions. Thank 
you very much.
    [The prepared statement of Secretary Jewell follows:]

 Prepared Statement of Hon. Sally Jewell, Secretary, Department of the 
                                Interior

    Chairman Wyden and Ranking Member Murkowski, thank you for inviting 
me to appear before your Committee to discuss the programs and 
activities of the Department of the Interior. I am happy to be here 
today.
    When I appeared before you at my confirmation hearing in March I 
talked about the scale of the duties of the position and the incredible 
diversity in the Department's mission. Every day Departmental employees 
are working to preserve our nation's great heritage and history, manage 
our federal lands, waters, and other resources, ensure the delivery of 
water for diverse users, empower insular communities, and support 
Native American communities. Since that time I have come to see and 
truly appreciate the astonishing breadth of the issues and 
responsibilities located within this one Department, many of which fall 
under the jurisdiction of this Committee. The Department's complex 
mission affects the lives of all Americans; nearly every American lives 
within an hour's drive of lands or waters managed by the Department.
    During the past 7 weeks my duties have taken me from south Florida 
and the Arthur R. Marshall Loxahatchee National Wildlife Refuge and 
Everglades National Park, where I saw, firsthand, Everglades 
restoration projects underway; to Boise, Idaho, where I met with a 
group of smokejumpers--some really tough firefighters--at the National 
Interagency Fire Center and learned how our federal firefighters are 
deployed when a wildfire is reported; to the Gulf of Mexico where I 
viewed an offshore drilling rig and a production platform with an 
inspector from the Bureau of Safety and Environmental Enforcement; and 
to Portland, Oregon, where I signed an agreement with the States of 
Oregon and Washington to expedite the review and permitting of energy 
generation, transmission, and other infrastructure development.
    The Department's bureaus serve as stewards of the nation's parks, 
wildlife refuges, wild and scenic rivers, seashores, and national 
monuments and recreation areas, and as the keeper of the history of 
this country. We share responsibilities to protect and advance the role 
of public lands and Indian lands. The lands and resources we manage are 
also a huge economic engine, powering our economy through energy 
development, tourism and recreation, logging, grazing and other uses. 
The Department oversees the responsible development of 23 percent of 
U.S. energy supplies, is the largest supplier and manager of water in 
the 17 western states, maintains relationships with 566 federally 
recognized tribes, and provides services to more than 1.7 million 
American Indian and Alaska Native peoples.
    In 2012, there were almost 500 million visits to lands managed by 
the Department. Recreational visits to our lands contributed an 
estimated $49 billion in economic benefits to local communities in 
2011. We collect nearly $13 billion annually through mineral extraction 
and other activities, and share nearly $5 billion of these revenues 
annually with states, tribes, counties, and other entities. An 
additional $2 billion of our budget is used in local communities across 
the nation through contracts for goods and services. In many of your 
states, the revenues we share from energy production and other 
activities are a critical component of the local economy. Overall, the 
Department estimates the exploration and production of oil, gas, coal, 
hydropower, and minerals on federal lands contributed nearly $275 
billion to the U.S. economy in 2011.
    It is with this fitting introduction to the Department's 
significant responsibilities that I come before you again to discuss 
the major programs and highlight some of the activities at the 
Department and my goal to ensure that it continues in its role as a 
resources manager, a job creator, and a partner to tribes and state and 
local governments.

                    STRENGTHENING OUR ENERGY FUTURE

    As I noted back in March, I believe that rapidly advancing 
technologies, smart policies, and a commitment to the President's ``all 
of the above'' energy strategy will allow us to continue with the safe 
and environmentally responsible expansion and diversification of our 
nation's energy production, further cutting our reliance on foreign 
oil, and protecting our land and water at the same time. We have been 
pushing forward with that goal.
Onshore Energy Development
    Onshore, the Bureau of Land Management held 31 oil and gas sales 
last year and is scheduled to hold more than 30 this year. Oil 
production from federal onshore lands is at its highest level in over a 
decade. The amount of producing acreage continues to increase, and was 
up by about 200,000 acres between 2011-2012. And the onshore leasing 
reforms put in place in 2010 resulted in the lowest number of protests 
in ten years--fewer than 18 percent of parcels offered in FY 2012 were 
protested, reducing costs and further speeding development.
    The Administration is making more coal available as well, with the 
number of producing acres rising 4 percent from FY 2009 to FY 2012. The 
amount of coal the agency leased last fiscal year is the highest since 
FY 2003. And through the Office of Surface Mining Reclamation and 
Enforcement, we are working to ensure that communities impacted by coal 
mining and the environment are protected during mining. We are also 
pursuing the reclamation of priority abandoned mine sites, with a goal 
of reducing the number of remaining dangerous abandoned mine sites 
nationwide.
    I have heard from a number of members about the need for better 
onshore oil and gas permit processing. Secretary Salazar instituted 
reforms to the BLM's oil and gas program, including transitioning to an 
electronic system that will automate and streamline the application 
process and significantly reduce the time for approval of new projects. 
From FY 2006 to FY 2012, the amount of time it took for all BLM field 
offices to process and approve complete drilling applications fell by 
40 percent and the number of inspections completed by all BLM offices 
rose 73 percent. The Administration has proposed extending and 
expanding the interagency permitting pilot office authority under the 
2005 Energy Policy Act to allow BLM to focus pilot office resources in 
areas of highest demand. We are headed in the right direction and will 
continue to look at procedures, processes, and the regulatory framework 
to identify areas for further reform.
    The Department also published several weeks ago an updated proposed 
rule on hydraulic fracturing on public and Indian lands. These are 
common sense updates to 30-year old regulations that will increase 
safety in oil and gas production on public lands while, at the same 
time, provide flexibility and foster coordination with states and 
tribes. This is an important step in ensuring that the public has full 
confidence that the right safety and environmental protections are in 
place.
    Alaska is an important component of our nation's energy strategy. 
The Arctic holds substantial oil and gas potential, but also presents 
unique environmental and operational challenges. The BLM recently 
finalized a new comprehensive plan--the first ever--for the 23-million 
acre National Petroleum Reserve--Alaska. This balanced plan provides 
access to over 70 percent of that area's estimated oil potential and 
provides for an important east-west corridor that could be needed for 
pipeline infrastructure to eventually carry Chukchi Sea oil to the 
Trans-Alaska pipeline. At the same time, it will protect the vital 
subsistence resources of Alaska Natives and the habitat of world-class 
wildlife populations.
    I recently appeared before the Senate Committee on Indian Affairs 
and noted at that hearing that the Department is committed to assisting 
Indian tribes in expanding renewable, reliable, and secure energy 
supplies on Indian lands and safe and responsible oil and gas 
development. Including Indian Country in the ``all of the above'' 
energy strategy will help increase domestic energy supplies and improve 
the economies of many Indian tribes and Alaska Native villages.
Offshore Oil and Gas Development
    We also are moving forward with oversight of the safe and 
responsible development of our offshore oil and gas resources. The 
first two sales of the 2012-2017 Five Year Program were held in the 
Gulf of Mexico in November 2012 and March 2013, and resulted in over 
$1.3 billion dollars in industry investment and government revenue 
through bidding on 436 tracts. At the end of April we announced the 
Proposed Notice of Sale for Lease Sale 233, scheduled for this August, 
making available 21 million acres offshore Texas. With this sale, all 
unleased acreage in the Western Gulf of Mexico will be available for 
leasing.
    Over the past several years, since the Deepwater Horizon oil spill, 
the Department has reformed the way development on the Outer 
Continental Shelf takes place. The Bureau of Safety and Environmental 
Enforcement has implemented safety and environmental management system 
regulations; issued a new drilling safety rule to refine safety reforms 
and strengthen requirements; taken steps to hold contractors 
accountable for their actions offshore; conducted two full-scale 
capping stack deployment exercises to respond to potential future well 
blowout scenarios; and provided new guidance on oil spill response 
plans.
    The Bureau of Ocean Energy Management has also significantly 
reduced the time for review of exploration and development plans for 
deepwater drilling in the Gulf of Mexico, with time from submission to 
approval down almost 35 percent from the period between October 2010 
and October 2011.
    BSEE has achieved similar, significant improvements in the 
processing of deepwater permits, with the average time for review 
reduced by about 37 percent between 2011 and 2012. This has contributed 
to the approval by BSEE of 112 new deepwater well permits, higher than 
in either of the two years preceding the Deepwater Horizon oil spill. 
There are more floating deepwater drilling rigs working in the Gulf of 
Mexico today than prior to the Deepwater Horizon spill, and we expect 
drilling activity to steadily increase over the coming year. And both 
BOEM and BSEE are working to modernize and streamline their data 
systems and the processes for the submission and review of plans and 
permits. When completed, this investment will achieve significant gains 
for both the rigor of analysis and the efficiency of review, saving 
time and money and enhancing accountability.
    Science continues to drive decision-making for the OCS leasing 
program. BOEM conducts rigorous scientific and environmental analysis 
to support all stages of the OCS program, partnering with academic 
institutions and other federal agencies to produce top-tier applied 
research to support decision making. BOEM also conducts thorough 
assessment of resource potential to identify areas of the OCS that are 
most promising for exploration and development. Last year BOEM began a 
Programmatic Environmental Impact Statement to support permitting 
decisions for geological and geophysical surveys that will be used for 
assessing energy resource potential off the coast of the Mid and South 
Atlantic. The Department also uses the results of exploratory drilling 
to improve its knowledge of the resource potential. As part of this 
process, the Department oversaw the first new exploratory activity in 
the Alaskan arctic in a decade, with Shell Oil Company beginning 
limited preparatory drilling activities in the Chukchi and Beaufort 
Seas under strict safety and environmental oversight.
    A priority for the Administration is implementation of the 
Agreement between the United States and Mexico concerning Transboundary 
Hydrocarbon Reservoirs in the Gulf of Mexico. Implementation of the 
Agreement will make nearly 1.5 million acres of the Outer Continental 
Shelf, currently subject to a moratorium under the Western Gap Treaty, 
immediately available for leasing and will make the entire 
transboundary region, which is currently subject to legal uncertainty 
in the absence of an agreement, more attractive to U.S.-qualified 
operators. BOEM estimates that the transboundary area contains as much 
as 172 million barrels of oil and 304 billion cubic feet of natural 
gas. We look forward to working with you on legislation to implement 
this Agreement.

Renewable Energy Development
    The Department has a critical role to play in fulfilling the 
President's goal to double renewable electricity generation again by 
the year 2020 by facilitating renewable energy development on public 
lands. I will continue to build on the Department's successes and work 
to make sure we are accomplishing this in the right way and in the 
right places.
    Securing clean sources of energy not only is good for the 
environment, it creates American jobs, and promotes innovation. In 
2009, there were no commercial solar energy projects on or under 
development on the public lands. From that time, the Department 
authorized 42 renewable energy projects on or through the public lands 
which, if constructed, will have the potential to produce enough 
electricity to power more than 4.2 million homes. The Department also 
plays a key role in efforts to strengthen the nation's electric 
transmission grid, approving permits enabling several hundred miles of 
transmission lines in seven states across federal lands in 2012.
    BLM has focused on an accelerated, but environmentally responsible, 
permitting process for the development of renewable energy on public 
lands that ensures the protection of signature landscapes, wildlife 
habitats, and cultural resources.
    Since 2009, BLM has authorized more than 12,000 megawatts of energy 
on public lands and waters, established a road map for responsible 
solar development in the West by designating energy zones, and flipped 
the switch on the first solar energy project to deliver power to the 
grid. BLM also released the Final Environmental Impact Statement for a 
proposed 750 megawatt facility in Riverside County that would be one of 
the largest solar energy projects on public lands in the California 
desert. BLM is also moving forward on wind energy, with a proposed 
complex in Wyoming that would generate up to 3,000 megawatts of power, 
making it the largest wind farm facility in the U.S. and one of the 
largest in the world. BLM also expects to propose rules that would 
establish a competitive process for issuing rights-of-way leases for 
solar and wind energy development on public lands.
    Significant progress has been made to advance offshore wind energy. 
BOEM issued the second non-competitive commercial wind lease off the 
coast of Delaware in 2012. Earlier this week I announced the first ever 
competitive lease sale, to be held in July, for a wind energy area 
offshore Rhode Island and Massachusetts, and BOEM will hold another 
competitive lease sale offshore Virginia this year. These sales involve 
nearly 278,000 acres proposed for development of wind generation to 
produce electricity to power as many as 1.9 million homes. We expect 
additional competitive lease sales to follow for wind energy areas 
offshore Maryland, New Jersey, and Massachusetts, and we continue to 
make progress on potential projects in areas offshore New York, North 
Carolina, and Maine.
    BOEM has established renewable energy task forces with a total of 
12 coastal states, including recent task forces in the States of Hawaii 
and South Carolina, and is overseeing progress in the planning of a 
potential Mid-Atlantic wind energy transmission line, which would 
enable up to 6,000 MW of wind turbine capacity to be delivered to the 
electric grid along the East Coast.
    And the Bureau of Reclamation's 58 hydroelectric power plants 
generate more than 40 billion kilowatt hours of electricity to meet the 
needs of over 3.5 million households and generate over $1 billion in 
gross revenues for the federal government.

                   MANAGEMENT OF OUR LANDS AND WATERS

    I will also work hard to build on the progress this Administration 
has made in the management of the federal lands and waters that make 
this ``America the Beautiful.''
America's Great Outdoors
    One of the major goals of President Obama's America's Great 
Outdoors initiative is to better connect youth and families to nature 
and outdoor recreation. Engaging with America's youth through the great 
outdoors helps lay the foundation for the next generation of our 
nation's stewards, scientists, business leaders, teachers, and others 
who will understand the key role that national parks and public lands 
and waters play in conservation and preservation of our nation's 
treasures and the significance they have for local communities, drawing 
visitors and boosting the economy.
    With the National Park Service's centennial anniversary approaching 
in 2016, we have the opportunity to both celebrate and confirm the 
NPS's stewardship of our cultural and natural treasures and its role in 
building enduring connections and enriching experiences with its 
visitors, including the nation's youth. I recently had the opportunity 
to meet students from Stonewall Middle School at Prince William Forest 
Park in Virginia to celebrate National Park Week and highlight the 
importance of outdoor recreation and education, especially to young 
people.
    I have also had an opportunity in these first weeks on the job to 
work alongside young people in Gateway National Recreation Area in New 
York and in a city park in Portland, Oregon, where high school and 
college-aged young people were restoring habitat and engaging other 
youth in environmental education and stewardship--all great examples of 
our commitment to a 21st Century Civilian Service Corps. In an effort 
to learn from the Civilian Conservation Corps of the last century, this 
will provide a tangible way to boost youth employment and job training, 
supporting our public lands infrastructure in a cost-effective way 
while giving youth a lifetime connection to public lands close to home 
and far away. It will also provide great opportunities for public/
private partnerships with businesses and non-profit organizations.
    Through partnerships with states, tribes, nongovernmental 
organizations, and concerned citizens, we will continue to use AGO to 
expand opportunities for recreation and conservation and to promote 
America's parks, refuges, and other public lands and waters. The 
innovative partnerships developed through this important initiative 
have helped create great parks and green spaces in urban areas, expand 
access to rivers and trails, support the $646 billion outdoor 
recreation economy (according to the Outdoor Industry Association's 
2012 report), connect the next generation to the great outdoors, create 
wildlife corridors, and promote conservation on large landscapes while 
working to protect historic uses of the land including ranching, 
farming, and forestry.
    An example of the great work done under this program is the Swan 
Valley Conservation Area, established as a unit of the National 
Wildlife Refuge System by the Department in 2012, which is situated 
between the Canadian Rockies and the central Rockies of Idaho and 
Wyoming, in partnership with landowners who voluntarily entered their 
lands into easements. The new Area will protect one of the last low 
elevation, coniferous forest ecosystems in western Montana that remains 
undeveloped and provides habitat for species such as grizzly bears, 
gray wolves, wolverines, and Canada lynx.
    The AGO initiative also benefits from fee receipts that are 
collected and reinvested in visitor services under the Federal Lands 
Recreation Enhancement Act (REA). The Department currently collects 
over $200 million in recreation fees annually under this authority and 
uses them to enhance the visitor experience at Interior facilities. 
Surveys show that most visitors believe that the recreation fees they 
pay are reasonable for the amenities and services provided; in fact, 94 
percent of visitors to NPS sites believe that the value for the 
entrance fee paid is ``very good'' or ``good.'' The Department 
encourages the Committee to reauthorize the REA, which sunsets in 
December 2014.
    And we are continuing our commitment to America's Great Outdoors 
through our request this year, for the first time ever, of mandatory 
dedicated funding for Land and Water Conservation Fund programs, with 
full funding at $900 million annually beginning in 2015. Enactment of a 
mandatory LWCF program would ensure continued funding for this program 
designed to make investments in conservation and recreation for the 
American people to balance the development of oil and gas resources. 
Protecting this balance through mandatory LWCF funding would reduce 
landscape fragmentation, making it more efficient to protect wildlife 
habitat, respond to wildfires and other natural disasters, and increase 
recreational access on the lands and waters that belong to every 
American.
    We recognize the challenges--including those of this Committee--in 
establishing new mandatory programs in the current fiscal environment. 
That's why as part of the FY 2014 Budget we have also identified a 
variety of mandatory savings proposals that, while justifiable on their 
own merits, could also be used to partially offset a mandatory LWCF 
proposal. Detailed descriptions of all of these proposals can be found 
at: http://www.doi.gov/budget/appropriations/2014/highlights/upload/
overview.pdf
    I would also note that our legislative proposal to reauthorize the 
Federal Land Transaction Facilitation Act, which expired in 2011, 
provides a unique opportunity to supplement our LWCF resources to 
protect additional high-value conservation lands by selling properties 
that have been identified as suitable for disposal. The proposal would 
use the sales revenues to fund the acquisition of environmentally 
sensitive lands and to cover the administrative costs associated with 
conducting the sales. We believe this is a win-win proposal that we 
hope would have bipartisan support in this Committee.
    Our nation's public lands that are managed by BLM include 
rangelands, forests, deserts, and mountains, all administered for 
multiple uses. They support a variety of resources and opportunities 
important to Americans such as forage for livestock, water storage and 
filtration, carbon sequestration, habitat for an abundance of wildlife, 
scenic beauty, and many forms of outdoor recreation.
    The National Landscape Conservation System, which includes 19 
national monuments, 21 national conservation (and similarly designated) 
areas, and 221 wilderness areas designated by Congress offer a 
different conservation model where many traditional uses are allowed. 
These spectacular lands provide a multitude of benefits including 
scientific and historical resources, critical habitat for a variety of 
species, and diverse recreational opportunities including hunting, 
fishing, and hiking that generate millions of dollars for local 
communities.
    The conservation and sustainable use of our rangelands is important 
to those who make their living on these landscapes--including public 
rangeland permittees, whose operations are important to the economic 
well-being and cultural identity of the West and to rural western 
communities. While significant workload and resource challenges exist, 
BLM is committed to reducing the backlog of grazing permit renewals and 
to issuing permits in the year they expire.
    BLM manages the timber on its Oregon and California (O&C) Grant 
Lands according to the principle of sustained yield. We are increasing 
support in 2014 for resource management on the O&C lands to implement 
the Western Oregon Strategy, including increased timber volumes offered 
for sale while at the same time increasing surveys of species under the 
Northwest Forest Plan and facilitating recovery of the northern spotted 
owl, as well as increased support for the BLM to continue its 
comprehensive effort to prepare new Resource Management Plans covering 
six BLM Districts in western Oregon.

Wildland Fire
    You heard several days ago from the Department on the outlook and 
planning for the coming fire season. Just a few weeks ago I had the 
opportunity to join with Secretary Vilsack at the National Interagency 
Fire Center in Boise to see this well-coordinated operation firsthand 
and discuss the efforts the federal government is making to protect 
citizens and property from wildfire.
    After a decade of drought and the continued proliferation of non-
native plant species and accumulation of hazardous fuels in our forests 
and rangelands, the 2012 fire season was one of the worst on record for 
BLM rangelands and woodlands in the lower 48 states. The 2012 season 
also impacted the other 3 bureaus with resource responsibilities, and 
with the outlook for the 2013 season to be as severe throughout much of 
the West, there may be record fires this year. To be prepared we are 
working together with other federal agencies, tribes, and local 
governments to ensure that we're doing everything we can with the 
resources that we have. Additionally we are working with our partners 
to reach the goals of the National Cohesive Wildland Fire Management 
Strategy to restore and maintain resilient landscapes, create fire-
adapted communities, and respond to wildfire.
    Let me add that the complexity and intensity of fires over the past 
ten years present enormous budgetary challenges for the federal 
government. While the latest projection for fire costs for the 2013 
season indicates that we have sufficient funding, because of 
sequestration we absorbed an overall $37.5 million cut to the 
Department's fire program that resulted in a reduction of approximately 
7 percent of the Department's firefighter seasonal workforce, with 
reduced lengths of employment for those hired. This reduces our 
capability and significantly constrains our work in fire response and 
in remediating land after fire damage.

Water Resources
    The Bureau of Reclamation is the largest wholesaler and manager of 
water in the 17 western states and the nation's second largest producer 
of hydroelectric power. Its projects and programs are critical to 
driving and maintaining economic growth in the western states. 
Reclamation manages water for agricultural, municipal and industrial 
use, and provides flood control and recreation for millions of people. 
Reclamation activities, including recreation, have an economic 
contribution of $46 billion, and support nearly 312,000 jobs. As a 
result, Reclamation facilities eliminate the production of over 27 
million tons of carbon dioxide that would have been produced by fossil 
fuel power plants.
    Reclamation has a long-standing commitment to support the 
Secretary's goal to strengthen tribal nations, including through 
ecosystem restoration, rural water infrastructure, and the 
implementation of water rights settlements.
    Population growth, development, and a changing climate are creating 
growing challenges to the nation's water supplies. In many areas of the 
Country, including the arid West, dwindling water supplies, lengthening 
droughts, and rising demand for water are forcing communities, 
stakeholders, and governments to explore new ideas and find new 
solutions to ensure stable, secure water supplies for the future. The 
Department is tackling America's water challenges by providing 
leadership and assistance to states, tribes, and local communities to 
address competing demands for water by helping improve conservation and 
increase water availability, restore watersheds, and resolve long 
standing water conflicts. Today, many of Reclamation's activities 
address drought through the use of enhanced water management that helps 
guard against and, to a certain extent, mitigate the devastating 
effects of drought. Water conservation by agricultural, residential and 
commercial users is a prime example.
    Through our national water conservation initiative, WaterSMART, we 
are finding better ways to stretch existing supplies and helping 
partners plan to meet future water demands. In 2012 the U.S. Geological 
Survey, a key partner in the WaterSMART initiative, began a three year 
study of three focus areas in the Delaware River Basin, the 
Apalachicola-Chattahoochee-Flint River Basin, and the Colorado River 
Basin. The study will contribute toward ongoing assessments of water 
availability in these large watersheds with potential water-use 
conflicts, provide opportunities to test and improve approaches to 
water availability assessment, and inform and ground truth the Water 
Census with local information. This is in addition to focusing on water 
availability, and investigating the components of a regional water 
budget to understand the amount entering and leaving each basin. This 
work also contributed to the Colorado River Basin Water Supply and 
Demand Study, the first of its kind, released by the Department in 
December 2012, which projects an average imbalance in future water 
supply and demand greater than 3.2 million acre-feet by 2060. The study 
projects the largest increase in demand will come from municipal and 
industrial users, owing to population growth, and estimates the number 
of people that rely on Colorado River Basin water could double to 
nearly 76 million people by 2060 under a rapid growth scenario. Based 
on this study, the Department, along with representatives from the 
seven Colorado River Basin states, the Ten Tribes Partnership, and 
conservation organizations, last week outlined a path for next steps to 
address these projected imbalances.
    I am committed to continuing to work with our stakeholders to 
assess the implications of water shortages, develop flexible 
operational plans that account for expected periods of drought, and 
support projects that conserve water and improve the efficiency of 
water delivery infrastructure.

                         COMMITMENT TO SCIENCE

    The Department's mission requires a careful balance between 
development and conservation, achieved by working closely with our 
diverse stakeholders and partners to ensure our actions provide the 
greatest benefit to the American people. The development and use of 
scientific information to inform decision making is a central 
component.
    Science at the Department promotes economic growth and innovation. 
At the Department, we use science to address critical challenges in 
energy and mineral production, ecosystem management, invasive species, 
oil spill restoration, climate adaptation, and Earth observation--such 
as satellite and airborne land imaging, and water and wildlife 
monitoring. And in support of the President's new Open Data Policy, the 
Department continues to make federal data collected through these 
efforts publically accessible. For example, the Bureau of Ocean Energy 
Management and the U.S. Geological Survey have collectively contributed 
over 100 datasets to ocean.data.gov, to support regional efforts under 
the National Ocean Policy.
    Scientific monitoring, research, and development play a vital role 
in supporting Interior's missions and Interior maintains a robust 
science capability in the natural sciences, primarily in the USGS. An 
example of how this expertise is applied is USGS's work as part of an 
interagency collaboration on hydraulic fracturing, which is aimed at 
researching and producing decision-ready information and tools on the 
potential impacts of hydraulic fracturing on the environment, health, 
and safety, including water quality and inducement of seismic activity. 
The USGS is also a leader in resource assessments, and just recently 
published an updated assessment of the Bakken and Three Forks 
Formations, finding greater resource potential there than previously 
thought.
    The President has also made clear that climate change is an 
important issue for the nation, especially as we face more frequent 
droughts, wildfires, and floods. Here at the Department, we are using 
the science expertise in our bureaus to assist our land managers to 
effectively prepare for and respond to the effects of climate change on 
the natural and cultural resources that we manage.
    While USGS provides exceptional support to Interior bureaus, other 
Departmental bureaus work collaboratively to bridge gaps in knowledge, 
leveraging the complementary skills and capacity to advance the use of 
science to support management decision making, ensure independent 
review of key decisions and science integrity, and adaptively use data 
to assist states, tribes, and communities throughout the nation.

                        IMPACTS OF SEQUESTRATION

    Finally, I want to mention the impact sequestration and uncertainty 
about the future has had on the Department and its programs. The budget 
cuts that we have seen push us back to funding levels last seen in 
2006, and reverse much of the progress made by Secretary Salazar, who 
worked in partnership with the Members of this Committee to advance the 
President's all-of-the above energy strategy; conserve our federal 
lands, waters and wildlife; advance youth engagement in the outdoors; 
and honor commitments to Native Americans. The process put in place by 
the sequestration undermines the work we need to do on many fronts, and 
we will continue to see impacts across the country in all of our 
bureaus during the coming months.
    We will survive these cuts this year by freezing hiring, 
eliminating seasonal positions, and cutting back on our programs and 
services, but these steps are not sustainable, as these actions which 
are eroding our workforce, shrinking our summer field season, and 
deferring important work cannot be continued in future years without 
further severe consequences to our mission.

                               CONCLUSION

    Mr. Chairman, Ranking Member Murkowski, and Members of the 
Committee, thank you again for inviting me to appear before your 
Committee. Achieving success in all of these important responsibilities 
on behalf of the American people is the Department's primary focus. I 
look forward to working with you as we advance these important issues.

    The Chairman. Thank you, Madame Secretary.
    We're also going to call another audible. We've had other 
Senators join us. So I think we are going to have to come back 
for a few minutes after the vote.
    Several colleagues have been very gracious--Senator 
Murkowski, Senator Franken--about the possibility of keeping 
this going. So my hope is we'll be able to get most of it done 
before the end of the vote at 10:15. Then we'll come back after 
that.
    Just a quick question on the O&C matter, Secretary Jewell, 
and this is really to confirm something. As you know the Oregon 
delegation feels so strongly about this. We've got 18 of these 
O&C counties and they are really hurting. We're pushing very 
hard to get the harvest up.
    We talked when you were in Portland about you all, 
particularly the BLM, giving us technical support so we can get 
into these maps and find a way to address the kind of partition 
concept that have areas where you focus on the harvest, areas 
where we protect the treasures. Could you just state publicly 
in affect what you said privately that you will be there to 
give us, through the BLM, the technical support we need here 
over the next few weeks?
    Secretary Jewell. Yes, sir. I'm happy to work closely with 
you, with the BLM.
    I know the checkerboard situation that is prevalent 
throughout the West is a challenge in terms of managing these 
resources, consolidating, doing it in a thoughtful, sustainable 
yield way is something we're committed to. So the BLM people 
will be happy to work closely with you on that.
    The Chairman. Very good.
    Let me talk about next national park funding. We've had 
several Senators raise concerns about authorizing new national 
parks given the scope of the backlog, this very significant 
backlog. I'm one who says we ought to be working on two tracks. 
We've got colleagues here, Democrats and Republicans, who want 
to designate new parks. I support that effort.
    I also share the view of colleagues who say we've got to 
come up with a fiscally responsible approach to deal with the 
backlog. We've been talking to the Director, John Jarvis, about 
it. My question is I understand that you all are reviewing 
several funding recommendations that are in the National Park 
Conservation Association report. The park concession errors 
have offered some ideas with respect to the Bipartisan Policy 
Center.
    Can you tell us a little bit more about ways in which we 
could look to bring in the private sector, fiscally responsible 
approaches, given the fact that we're going to try hard to 
build a bipartisan coalition so that we can have these new 
parks which you and I have talked about? They're good for our 
future of preserving our treasures. But they're also good for 
the economy.
    But I do think colleagues are making legitimate points 
about the backlog. Please tell us what ideas you may be looking 
at from the Park Conservation Association and the Bipartisan 
Policy Center.
    Secretary Jewell. Thanks very much, Mr. Chairman. This is 
certainly something that I'm familiar with having served on the 
Second Century Commission of the National Parks along early 
with Senator Portman, although he left us to run for elected 
office which we certainly appreciate as well.
    There's no question that we have a significant deferred 
maintenance backlog. It's estimated to be over $11 billion in 
our national parks. That is really something that has been 
accumulating over many, many years of not treating our assets 
in the public lands in the way we might do them in the private 
sector in terms of setting aside depreciation. That has more to 
do with appropriations and less to do with what the national 
park would like to do. They would like to maintain these 
facilities.
    But it is a challenge in budgetary times. We need your help 
to put the Federal Government's part in the budget to 
supplement what we might do from the private sector. There are 
opportunities for private sector engagement.
    One of the things that the Second Century Commission worked 
on was public/private partnerships and recognizing that people 
love their national parks. There is an opportunity to leverage 
that love of the parks to find ways to support and recognize 
private donations. But I think it's fair to say, and this came 
from the Second Century Commission as well, that private 
philanthropy should be the margin of excellence for the parks, 
not the margin of survival.
    It's critically important that we step up as a Federal 
Government to support these assets that are so important. 
There's hardly a Senator that I visited with on either side of 
the aisle that didn't have some wish or desire that related to 
a national park in their district or certainly public lands in 
their district and support for them. So we do need to work with 
you and with the appropriators on adequate funding to begin to 
address the maintenance backlog. But we are very willing and I 
know Director Jarvis is in particular, in finding ways to 
support and enhance private sector engagement.
    Just a quick story. I went up the Washington monument with 
a private donor who is splitting with the Federal Government 
the cost for the renovations of that facility, David 
Rubenstein. I appreciate his support. He's setting a great 
example for the private sector. We're certainly looking for 
more opportunities like that.
    The Chairman. I'll give you just one question for the 
record and stay under time. On the Klamath issue in Oregon, 
which, as you know, is a classic challenge. Fish, agriculture, 
water, energy. Commissioner Connor testified a few weeks ago 
that the Bureau of Reclamation didn't anticipate any supply 
cut-off to on-project users.
    If you could just get that back to me in writing with a 
quick confirmation, that would be much appreciated. I have not 
heard anything to the contrary. My time is up.
    If you could just get back to me with a response 
reaffirming what Commissioner Connor said, that would be 
helpful.
    Secretary Jewell. Sure, we're happy to do that.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Secretary, I'm going to defer my questions until my 
colleagues have had a chance to address theirs because I'm 
going to be coming back after the votes.
    But I did want to just put a statement on the record. You 
had noted in your opening statement that oil production from 
Federal onshore lands is at its highest level in over a decade. 
You noted that perhaps our commentaries differed. I had said 
oil production from the Federal estate actually fell 5 percent 
and the reference there.
    So I think it is important to just give some of the numbers 
here very briefly because I think it can be confusing.
    Federal onshore oil production was at 89.5 million barrels 
back in 2003. It's gone up to 108.7 million in 2012. So you do 
have a substantial increase there. But it's not the full 
picture and that's my point.
    Because on Federal offshore production we've seen that fall 
from 532.7 million barrels in 2003 to 430.6 million barrels in 
2012. So what we've got is Federal onshore production which 
rose by about 20 million barrels. But Federal offshore 
production fell by 100 million barrels, more than 5 times the 
onshore increase.
    So I think it's important that when we're talking about 
this we look at the full picture. So if your numbers are 
different than mine I'd be happy to share with them. But with 
that, Mr. Chairman, I will defer to others so that they can get 
their questions in before the vote.
    The Chairman. Very good.
    Senator Franken.
    Senator Franken. Yes, can I ask? Did the BP oil, the 
moratorium after the BP oil spill was that, is that really what 
has caused that dip? I mean, we had a huge thing happen. There 
was a moratorium after that.
    Is it OK if I ask that of Mr. Hayes?
    Secretary Jewell. Sure.
    The Chairman. Mr. Hayes.
    Mr. Hayes. Yes, Senator. It is true that oil production in 
the Gulf did decline because of the safety issues that arose 
and the need to upgrade our safety standards.
    The good news is that there's an EIA recently reported a 
very strong upward trend now in the Gulf. The Secretary 
mentioned a major discovery. There have been ten major new 
discoveries. There are now more than 50 rigs drilling in the 
offshore.
    The lease sales are very strong that we're having and that 
we've had in the Central Gulf and the Western Gulf. So we 
expect to be back to where we were and further. But there 
certainly was a time that we did a pause and increased the 
safety standard and changed the way we did business. That did 
effect, we believe, temporarily production of the offshore.
    Senator Franken. Yes, I'm sorry. I just wanted to clarify 
that. It's a shame it might come out of my time to put pressure 
on the Secretary's children for grandchildren.
    [Laughter.]
    Senator Franken. I regret that. But I'm going to be 
chairing lately and later.
    The Chairman. You will?
    Senator Franken. Where I can do that we can find out the 
whole story there.
    [Laughter.]
    Senator Franken. Secretary Jewell, I want to very briefly 
talk about an issue that is really important in Northern 
Minnesota. There are 93,000 acres of school trust lands that 
belong to the State that are trapped in the Boundary Water 
Canoe Wilderness Area which means they can't contribute to the 
economic development of the support schools in Minnesota.
    The Forest Service is working with the State to both 
purchase land from the State and to exchange the rest of the 
lands with Minnesota. The Superior National Forest has 
submitted to the Administration a pre-proposal for the purchase 
piece. I want to urge you to give every consideration to this 
application. It's an important issue to Minnesotans and to our 
schools.
    Secretary Jewell. Just to clarify, Senator, if it's Forest 
Service it's in the Department of Agriculture. So I'm not sure 
that we're involved directly in that one unless David knows 
otherwise.
    Mr. Hayes. Not sure but we'll certainly work on it.
    Secretary Jewell. I mean, we certainly can support that 
with my colleague, Tom Vilsack.
    Senator Franken. It goes to both agencies.
    Secretary Jewell. Does it?
    Senator Franken. But we'll clarify.
    Secretary Jewell. Yes, I'd be happy to review that.
    Senator Franken. Yes.
    I just want to get into water a little bit. You mentioned 
water. It's critical, obviously, to our economy and to our well 
being. We need water for farming, for healthy ecosystems and we 
need it for energy production.
    The drought that devastated so much of the country last 
year drove home just how important water is. To make ourselves 
resilient to drought we need to monitor our ground water 
resources. We need to know if the rates at which our aquifers 
recharge are sustainable given how much water is being taken 
out.
    Your Department is issuing a lot of oil and gas permits in 
drought prone areas. These activities require huge amounts of 
water. For instance, a single hydraulic fracturing well uses 
between one and ten million gallons of water. We've even heard 
about competition now between farmers and oil and drilling.
    So can you just give me your take on a walk through how you 
consider water issues when issuing permits for energy 
development on public lands? The largest wholesale supplier in 
the Nation is the Department of the Interior. You have to be a 
leader in sustainable management.
    Can you just walk through these considerations?
    Secretary Jewell. I'll do it at a high level. I'll ask my 
colleague, David Hayes, to weigh in with a little more detail.
    First, on hydraulic fracturing one of the things that we 
are encouraging is the reuse of hydraulic fracturing fluids so 
it can be reused. Another thing that's happening within the 
industry is the potential of using produced water which is salt 
water from lower depths for hydraulic fracturing as opposed to 
water, ground water, that may be competing with other 
resources. Those activities are being encouraged.
    The water is generally controlled by States. So as energy 
companies purchase water, they're not purchasing it from us or 
asking us for it. It's coming from State and local resources.
    So I think that the role that we can play is encouraging 
reuse and monitoring appropriate use of produced water so that 
there isn't competition for that. It's certainly very expensive 
for the energy companies to buy water for these purposes as 
well.
    But David, I want to turn to you to give, perhaps, a little 
more detail specific to this topic.
    Mr. Hayes. Just very quickly, Senator. Obviously the water 
use is a big issue for us. The President's budget follows 
through on the requirement that Congress laid out for us in 
2007 for a water census. We're asking for about 15 million for 
the U.S. Geological Survey to help provide the data for that.
    In terms of permitting what the Secretary said is very 
important. Typically the States have primacy with regard to the 
water use. The proposed fracking rule that is now out for 
further comment suggests that we require a tracking of that 
water because when it comes up it can be, if it's not handled 
appropriately, it can cause damage to, for example, the public 
lands.
    But we look forward to a further dialog. It's a very 
important issue.
    The Chairman. Let's do this. We're going to have Senator 
Franken chair after the break.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    First, Mr. Hayes, thanks for your dedicated service. We're 
very grateful. Thank you.
    Madame Secretary, you brought up sequestration. I just 
wanted to ask about this revenue owed to States under the 
Mineral Leasing Act. In March the Department of the Interior 
notified States that it would withhold over $109 million of 
revenue during the remainder of fiscal year 2013.
    This was before you were confirmed. This was before you 
were sworn into office.
    At that time the Department said that its decision was in 
accordance with the Budget Control Act of 2011, the sequester. 
Three weeks ago a bipartisan group of us, ten Senators, 5 
members of this committee.
    Senator Heinrich was one, Senator Mark Udall, Senator 
Hoeven, Senator Lee. I sent a letter to OMB. You have a copy of 
the letter.
    But in that letter we asked OMB to confirm that your 
Department would return mineral revenue withheld in fiscal year 
2013 to the States and do that next year in fiscal year 2014. 
We explained that a provision within the Federal budget law 
required the Department to return withheld mineral revenue to 
the States when sequestration took place back in the mid-1980s. 
The same provision of the law applies today to the sequester 
which took affect this year.
    So you have a copy of the letter to OMB. So can you confirm 
that the Department will return mineral revenue withheld in 
fiscal year 2013 to the tune of $109 million to the 35 States 
to which it is owed?
    Secretary Jewell. Senator, thanks for the question and your 
letter. I understand the importance of mineral revenue to the 
States. We are doing our best to comply with the Balanced 
Budget Under Emergency Deficit and Control Act otherwise known 
as the sequester.
    Our understanding is that we were required to withhold 
payments. It is designed to be inflexible, damaging and 
indiscriminate. It is. This is an example of that.
    So I will be fulfilling my obligation under the law. 
Whether that requires a repayment to the States or not is 
something that certainly OMB is the right place to assess this. 
If we're asked to do that we'll absolutely will do that. We 
appreciate the importance to the States. But we are doing our 
best to comply with the law as it written.
    Senator Barrasso. Thank you.
    I'd like to ask about the BLM's revised hydraulic 
fracturing rule. Today you announced extending the comment 
period another 60 days. I understand the oil and gas producers 
will be able to obtain a variance from BLM's rules in States 
which have their own hydraulic fracturing rules that ``meet or 
exceed the BLM's rule and how it's written.''
    Secretary Jewell. Correct.
    Senator Barrasso. BLM may, it says also that the BLM may 
rescind this variance or modify the conditions of approval at 
any time. So this is hardly the certainty that you acknowledged 
during your confirmation process is so important for the 
private sector. You had said they need certainty.
    It's unclear to me why BLM is adding Federal regulations on 
top of State regulations. You know, Wyoming adopted hydraulic 
fracturing regulations about 3 years ago. Since then nearly all 
States who have meaningful oil and gas production have adopted 
or are in the process of adopting their own hydraulic 
fracturing rules. Many States, such as Wyoming, already apply 
their rules to Federal lands within their borders.
    So in this respect BLM's rule is a solution it seems to me 
looking for problems. Do you believe that States which are 
currently regulating hydraulic fracturing aren't doing a 
sufficient job? If so, which States do you have in mind?
    Secretary Jewell. Senator, I want to say that it's highly 
variable between States. The State of Wyoming is sophisticated 
in its oversight of hydraulic fracturing. We applaud that.
    You understand the resources within the State and I think 
that it's a good example of a State that's doing an effective 
job. Our role is to provide minimal acceptable standards on 
public lands. That is our oversight on behalf of the American 
people. That's what we're doing.
    The reason for the comment period, the 30 days initially 
and now the extension of 60 days is to provide an opportunity 
for people to comment on those rules to determine if it's 
problematic for them. So we will be listening to those comments 
and reacting appropriately.
    Senator Barrasso. I appreciate it because the variance 
process leads to uncertainty. It doesn't give the kind of 
certainty that you talked about in your confirmation. So I 
appreciate that.
    Final question about leadership of the Bureau of Land 
Management. Last year Bob Abbey, the Director retired. 
President Obama has yet to nominate a successor. As the 
President considers a replacement it's critical that he look to 
qualifications outlined in Federal law.
    The Federal Land Policy and Management Act states the 
Director of the Bureau shall have ``a broad background and 
substantial experience in public lands and natural resource 
management.'' Bob Abbey had over 30 years of experience working 
for land management agencies prior to his nomination as BLM 
Director. His predecessor, Jim Caswell, also over 30 years of 
experience in land and natural resource management prior to his 
nomination.
    So do you believe the BLM Director should have a broad 
background and substantial experience in land and natural 
resource management as the law calls for?
    Secretary Jewell. Senator, I'm going to do my best job to 
find someone that's highly qualified for the position that has 
the requisite experience. I need to take into account the 
talent that exists throughout the BLM and the ability of an 
individual to lead that organization, leveraging the talent 
that's there. That's what we would do in private industry. You 
take all of these things into account. I'm certainly committed 
to doing that here as well.
    Senator Barrasso. Thank you, Madame Secretary.
    Thank you, Mr. Chairman.
    Secretary Jewell. Thank you.
    The Chairman. Thank my colleague.
    Senator Heinrich is going to be next and just because I 
think colleagues are trying to figure their schedules what 
we'll do is we'll get as many colleagues in. In fact now 
Senator Landrieu has come, Senator Heinrich, so she'll be next. 
I think we're going to get you in before 10:15.
    But when the votes start at 10:15, we will break. I 
anticipate those votes being done at 11. Senator Franken will 
come back and Chair and Senator Murkowski will be there. So 
we'll just keep going.
    Senator Landrieu will be next. After Senator Landrieu will 
be Senator Risch.
    Senator Landrieu. Thank you very much, Mr. Chairman. I 
apologize. I had to step out for another meeting.
    Welcome, Secretary Jewell. Thank you so much for taking one 
of your first trips down to the Gulf Coast. I understand you 
were off the coast of Louisiana at one of our offshore oil and 
gas rigs. We really appreciate you reconnecting with that 
important industry and resource for our Nation based on your 
experience earlier in your career.
    I wanted to bring up two issues and have questions just on 
two issues.
    First is the request in the budget for the Land and Water 
Conservation Fund. There are many of us that are very 
interested in funding the Land and Water Conservation Fund for 
many reasons. There's a Federal side that helps our parks and 
our land acquisition. There's a State side that helps our 
States to really leverage those conservation dollars to expand 
recreational opportunities and save special places.
    I don't think there's really a member on this committee 
that doesn't want to do that, within reason. Recognizing the 
Western States think they still, they have too many, too much 
land already purchased by the Federal Government. I acknowledge 
that, their concern.
    However, my concern is that in this budget we are using 
revenues generated off the coast of Louisiana and Texas when 
Louisiana and Texas and Alabama and Mississippi and Florida are 
coastal areas have so much need. The money that we're 
generating it seems like to me which is pretty significant. I'm 
going to put up a chart in a minute. Is basically being used to 
fund the Land and Water Conservation Fund, all the money goes 
elsewhere in the country.
    We're saving the redwoods, you know, in the Northeast and 
California and the sequoias. But we're not saving the marsh 
where the revenues are coming from. Do you have a comment about 
that or what are your general feelings?
    I say, coming from Louisiana, I mean, our States are 
serving as platforms for the production. Without the south 
Louisiana, Texas, there would be no way for the Federal 
Government to access resources that are clearly ours. But 
without our States, there could be no access to the offshore.
    Secretary Jewell. Yes, Senator, thank you for the question. 
As I mentioned in my opening comments, I support full funding 
of the Land and Water Conservation Fund which has not been the 
case for more than 1 year in its almost 50-year history.
    I appreciate the revenue generated from offshore oil and 
gas production. As I went to the Gulf Coast I saw firsthand the 
positive impact it has on the residents of Louisiana through 
the jobs that it's created including visiting our offices there 
which has over 500 people in the offices there.
    Senator Landrieu. Listen, and look, we appreciate the jobs. 
But 500 jobs and the jobs that are created along the coast do 
not compensate for the loss of revenues. This is 6 billion in 
2006. It's projected to be 11 billion annually coming off the 
coast of Louisiana and Texas. Yet we are struggling here for 
years trying to get a fair share of that money just to be kept 
at home along the coast that's producing these revenues.
    Now meanwhile if you put up the other chart. The inland 
States which I do not, you know, I'm a little jealous actually 
of what the deal that they were able to get because Wyoming and 
New Mexico, Senator, your State, as you know, keeps 50 percent 
of their revenues. But Western States have a deal with the 
Federal Government. All the money that they generate on Federal 
lands, they keep 50 percent.
    So over the course of time the Western States have kept $61 
billion, the Western States to spend on anything they want, not 
even on conservation. They spend it on schools, hospitals, 
roads. They don't even have to spend it on the environment.
    Meanwhile the Gulf Coast States get nothing, get nothing. 
We generate more money than they do and in our case we are even 
willing, at least for the State of Louisiana, we are willing to 
dedicate all of that money to coastal restoration. So I just 
can't impress upon the both of you how critical this is.
    I want to thank the chairman and the ranking member for 
their support of this general concept. Now how we work out the 
details I don't know. But again I want to say to the Western 
States, I just want the same deal you all have.
    I'm even willing to take a little bit less. I'm willing to 
be more flexible. The people I represent are truly desperate. 
This is the largest land loss in the continent of North 
America, in the whole continent, the largest land loss.
    Alaska has some serious erosion issues, and they're 
serious. I don't think they're as serious as Louisiana's. This 
is a river that supports the whole Nation. This river is not a 
stream or a little paddle place where you just paddle around 
and have an enjoyable time. We're putting the largest tankers 
and commerce down this river.
    So I'm not going to stop on this. I just want to tell you 
that, you know, or just share with you that, you know, I'm 
going to be watching this budget very carefully.
    The second question I have I will not ask because my time 
is over, but I will submit is on the permitting process. We 
cannot produce any of these revenues, not in the Western 
States, not off of our shore without streamlined, efficient, 
best practices permitting. I'm still, despite the good work 
that you're doing. Hearing complaints from the industry that 
they've got to get some green lights to drill.
    They can do it. They can do it safely. They need permits.
    Thank you very much.
    The Chairman. Senator Risch.
    Senator Risch. Thank you. Thank you, again.
    Mr. Chairman, Secretary Jewell, thank you for visiting the 
interagency fire center in Boise. I think you'd agree with me 
after you and I toured that facility that the agency is 
prepared. They're ready and they're willing and able to take on 
the 2013 fire season.
    Well equipped, even better trained, but at the end of the 
day, of course, it's going to depend upon the fuel loads and 
mother nature and the number of fires that they have to deal 
with. But we appreciate your input. We certainly appreciate you 
appearing there.
    They've already been tested. Last Friday they had a fire, a 
small one, but none the less a fire less than 5 miles from the 
facility. So they'll be at it this summer.
    You know I've had a number of conversations about Sage 
Grouse. You're probably tired of hearing about Sage Grouse. But 
I just, I want to get a response from you now that's you've 
been on the job for a while and been able to review this.
    You and I talked about the letter that first of all, the 
comments and the suggestions that Secretary Salazar made 
regarding how we should rehabilitate the population of the Sage 
Grouse and particularly his letter of December 18, 2012, which 
outlined the Department's view of how that should be done and 
the questions for the record and the answers that were 
attached. All of it is in sync with my view of a collaborative 
method and a State driven method to address this issue. I think 
in sync with what your view is about the collaborative system.
    After you've been on the job now for the period of time 
you've had, do you have any more thoughts on this? Are you 
still in agreement that this is the best way to pursue how we 
do, what all of us want to do? That is preserve, protect and 
rehabilitate the greater Sage Grouse. Are we still singing off 
the same sheet of music?
    Secretary Jewell. Yes, Senator, I believe we are. I've seen 
great collaboration between States, private landowners, the 
Bureau of Land Management, Indian tribes, all in, working 
together to how can we preserve and protect this important 
habitat. It's a challenging issue with invasive species and 
wildland fires, as you know. But these are things that we want 
to work on together and there's some great examples out there 
for us to learn from. We certainly are learning from that. So 
I'm very committed to an ongoing collaborative effort as you 
describe.
    Senator Risch. Thank you. I appreciate that. We know that 
in past years all of this has been driven top/down from the 
Federal Government. I think we've learned that this new 
approach of doing it from the State up seems to work a lot 
better and actually gets results.
    So I'm delighted to hear that you remained committed to 
that. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank my colleague.
    Here's where we are. Senator Portman can't come back. 
Senator Heinrich is being very gracious. He will Chair at 11 
and Senator Murkowski will be here.
    So Senator Portman we can get you in before the break 
because of the thoughtfulness of Senator Heinrich.
    Senator Portman. Thank you very much, Mr. Chairman. I've 
always Heinrich was a particularly thoughtful guy. Now it's 
been proven.
    [Laughter.]
    Senator Portman. He's also my mentee. We have a mentor/
mentee relationship here. I can't go into detail because your 
time is too precious. But I think that's really the reason he's 
willing to do it. He's looking for something.
    [Laughter.]
    Senator Portman. Thank you, Martin.
    Quickly on hydraulic fracking, I know you've come up with 
this rule for federally controlled lands. Thank you for your 
testimony on that. It's a big deal because, as you know, about 
90 percent of your wells will be fracked probably on public 
lands.
    I would just, you know, Ohio frankly doesn't have a lot of 
public lands. However we do have a lot of fracking. We've been 
doing it for about 50 years.
    We have some good regulations. We think they're some of the 
best in the country. We have no documented cases, for instance, 
of any ground water contamination. We're proud of that.
    So I would just raise the point that on average it takes 
307 days to get needed permits on Federal lands. This is one 
reason I've been working with some colleagues on both sides of 
the aisle on permitting reform. We're now 17th in the world 
based on the IMMF metrics for the ease of doing business with 
regard to building something.
    It affects everybody. Energy developers who are seeking 
approvals for major capital projects whether it's oil and gas 
or whether it's wind or solar are facing the same thing. On 
Federal lands often a bureaucratic gauntlet of, you know, going 
through multiple separate agencies and the threat of litigation 
concerning permits can go as long as 6 years, as you know. So 
it's uncertainty, I think, that's leading to a lot of investors 
being hesitant to make these kind of commitments to new capital 
investments.
    So I would hope that as you look at this issue or look at 
what the States are doing and specifically our State of Ohio 
where, you know, again, we do have a good record.
    Second, that you help us on this permitting bill. This is 
not something we've introduced yet. We're still looking for 
input and ideas. But we want to be sure that we have it, have 
the input from the Department and that it's a bipartisan effort 
going forward.
    Second, I want to ask for your comment on that because of 
the short period of time, but if you have any comments after I 
raised two of the quick issues, I'd appreciate it.
    This World War II prayer bill, we talked about this during 
your confirmation process. It passed the House last year with a 
vote of 386 to 26. It would take this D-Day prayer that FDR 
said on the day of the D-Day invasion.
    As you know today is the 69th anniversary of D-Day. We're 
interested in moving it forward in the Senate as well. Last 
year Senator Lieberman and I were able to make some progress 
but not get it through the process. We would love your help on 
that.
    The Park Service has worked with us to ensure the bill is 
subject to the standard commemorative works approval and review 
process. Again, your support on that would be terrific. Since 
it's the anniversary of D-Day today I thought I had to raise 
that. It's S. 1044.
    Finally on national parks. Your comments were correct that 
we need to do better on the public/private partnership front. 
I'm interested in your specific example of Washington monument.
    This $11 billion backlog and the deferred maintenance 
backlog, I was at the Cuyahoga Valley National Park over 
Memorial Day which is a real jewel and top ten park in the 
country I'm told in terms of attendance. They've got some 
serious concerns on this very issue. So my question to you is 
in the process of the centennial coming up do you all have a 
plan to try to encourage more public/private partnership?
    As you know when I was at OMB we started this initiative 
that you, Madame Secretary, know a lot about. The notion was to 
with the Centennial Challenge to challenge the private sector 
frankly to match dollar for dollar. Do you have a centennial 
plan that you all have put together? We haven't seen one yet. 
We are, as you know, trying to encourage that.
    Mark Udall and I had sent a letter on to our colleagues on 
this that you may have seen. So anything you can tell us about 
what you're doing on the permitting, any thoughts on the World 
War II prayer and any thoughts on the public/private 
partnerships as we come up to the centennial, we'd appreciate 
it.
    Secretary Jewell. I'll try and do this quickly.
    First on the centennial. There's actually quite a lot of 
work going on with the National Park Foundation and with the 
National Park Service and various advisory boards to look at 
what we can do to facilitate the public/private partnerships 
which I think are going to be a very important part of that. 
Also raises visibility among the American people.
    People love their parks. We want to give them an easy 
opportunity to support their parks. So that is coming and 
should there be legislation involved I'll make sure that you're 
well aware of that. At this point we're working within the Park 
Service and the external friends groups and so on to facilitate 
that.
    On the permitting side, there's actually been a lot of work 
that has been done by the BLM to streamline the permitting 
process. We've also done that offshore. There's lessons from 
offshore that we think we can bring onshore. There is a need, a 
desperate need for automation in the process.
    We've also found that unfortunately with sequestration 
across the board the offices that are most active still have to 
scale back their operations, so getting past that would be 
very, very helpful. We--so there's a lot of work going on. In 
the 2014 budget there is a request for fees generated to 
support that activity so it doesn't become just strictly a line 
item in the budget that can be cut.
    It's a variable depending on the demand which is going to 
depend on the areas that we are, where the development is going 
on. It doesn't--formations don't go across State lines, but 
that's how we're required to fund these agencies. So we're 
going to need your help on some of those things for 
streamlining.
    On the World War II prayer bill. Certainly we appreciate 
the importance of faith in the lives of all Americans and the 
sacrifices made in World War II. Happy to continue to work with 
you on that bill.
    Thank you.
    Senator Murkowski [presiding]. OK, we will stand in recess 
until 11 or until the series of votes are concluded. I'll be 
back and Senator Heinrich will be back. Thank you.
    [RECESS]
    Senator Heinrich [presiding]. Secretary Jewell and Mr. 
Hayes, thanks for your patience. We're going to get started 
here. I'm going to go ahead and ask the question that I held 
off earlier. Then we've got a couple of other Senators who've 
been very patient as well. We'll get to them as quickly as we 
can.
    Secretary Jewell, you mentioned interagency cooperation 
around your firefighting effort, something that is very timely 
for me right now. That coordination is especially important 
when it comes to post fire rehabilitation and flood prevention 
in the communities that are oftentimes downstream from 
Department of the Interior lands as well as downstream from 
Forest Service lands.
    Are there any additional authorities that you need to 
ensure a seamless and coordinated response between Interior 
agencies like BLM, BIA, Fish and Wildlife Service, Park Service 
and the Forest Service to make sure that we're meeting these 
challenges in as coordinated and consistent and seamless way as 
possible?
    Secretary Jewell. Senator, thanks for bringing up the 
important issue of wildland fire. I would say that on the 
coordination front we are very well coordinated. When I went to 
the Interagency Fire Center I went there with Secretary 
Vilsack. All the various units of the Federal Government as 
well as the State governments and the local governments are 
well coordinated.
    I would say that you raise an issue around post fire 
remediation and making sure we prepare lands for fires in 
advance whether that's prescribed burns or hazardous fuels 
removal and other means. Those are being squeezed from a 
budgetary standpoint. That is the biggest challenge I would say 
that we face.
    When we do have a wildland fire, for example, on rangeland 
the ability to go back after that and replant native, you know, 
shrub step, sage and so on is really, really important. If we 
don't do that you end up with cheat grass and other non-native 
species that are much more prone to fire and actually habitat 
destroying. We have not had sufficient money to be able to do 
that work. That's very important.
    Not to mention on our tribal lands where year round it's an 
important source of jobs for tribes as well. So I would 
appreciate support in making sure that the emergency part of 
firefighting gets segregated so that we can year in/year out do 
the right job in terms of management of the lands for wildland 
fire.
    Senator Heinrich. Oh, I appreciate that.
    We recently had a hearing earlier this week with the Forest 
Service about this issue. We've had real challenges in terms of 
some of the downstream impacts on tribes and other communities 
in New Mexico after the big fires of last year and the year 
before. So it's something I'm more than happy to work with you 
on.
    Senator Franken brought something up which I hadn't thought 
of before the hearing, but I think bears a little attention. He 
talked about the issue of land consolidation and State lands 
within Federal lands. Not knowing the specifics of the 
situation in Northern Minnesota I can say that that is an 
enormous issue that has not received a whole lot of attention 
but is ubiquitous across much of the West.
    Whether you're in New Mexico or Utah or Nevada, you have 
these situations where you have State lands checker boarded 
through Federal lands. It's a very large resource efficiency 
issue. Some of the tools that we typically use to consolidate 
and do land swaps and other things are limited in that case, 
particularly the Land and Water Conservation Fund is a tool we 
can't use to purchase State lands.
    I've proposed reauthorizing FLTFA which was used for about 
10 years and actually resulted in higher disposal rates at BLM 
but also was something we could use to resolve these sorts of 
conflicts and then focus those resources back on high value 
lands. But I would be curious if you have any sort of concerted 
effort. I would encourage you to give this issue its due while 
you're the Secretary because I think it's something that has 
festered for a long time and it leads to a lot of unnecessary 
management and resource conflicts between States and the 
Federal Government.
    Secretary Jewell. I very much appreciate your support of 
reauthorizing FLTFA. I think that's a useful tool that has 
worked in the past and would be helpful to have in the future. 
So thank you for your support there.
    We're in full agreement. I would say that we've done it 
more on a case by case basis as land swaps have made sense. 
There's certainly some that are pending that I'm aware of.
    There's also some lands that are Federal that may not serve 
the Federal Government as well as they might service States. So 
we are very open to that. I think have the procedures in place 
to be able to deal with those things.
    I don't think we've looked at it necessarily on a landscape 
level basis. There may be an opportunity to do that in some 
areas. But we are with you in concept fully.
    Senator Heinrich. Great. I know that it can be challenging 
and they're oftentimes transparency issues. But I would urge 
you to take a look at that. When it's done well it can 
definitely serve the public on multiple fronts.
    Let's see. It's just the two of us.
    Senator Murkowski. Alright.
    Senator Heinrich. So I'm looking around at my list but none 
of them are here. So.
    Senator Murkowski. They may.
    Senator Heinrich. Do you want to?
    Senator Murkowski. Thank you. Thank you. I appreciate it, 
Mr. Chairman.
    Madame Secretary, let me start with some questions that I 
alluded to in my opening. This is as it relates to the NPRA 
legacy wells. I think that you feel my frustration and my 
concern.
    As I mentioned in our conversations earlier, you know, if 
the Federal Government was a private operator and had abandoned 
these wells as the Federal Government has, the State would have 
had an opportunity to levy some fines on that private operator. 
Our estimates are that it would be about $41 billion in fines.
    So I've just been so concerned about what I believe to be a 
double standard here because I think we do have an expectation 
that if you were going to be exploring and producing in an 
arctic environment there is an absolute need to be responsible, 
to be cautious, to really be careful. So it just hurts to see 
what we have left. So now we get to the part where, OK, it 
happened. Let's figure out how we're going to clean it up.
    I thought that we had agreed that, look, there's got to be 
a better path forward rather than just telling the State, you 
figure it out. So when we met before the Interior probes 
hearing last month, I thought we had a pretty good discussion 
on how we might work together to find a path forward that 
didn't require the State to pay for these Federal well 
remediation efforts. Since that time I've had constituents come 
back to me who have had meetings, not only with you, but those 
in your Department and they have effectively told me that they 
believe that the Department and that you, actually support and 
agree with the proposal that was put out again before you took 
the position as Secretary.
    Those decisions that were made before you came, you're now, 
kind of, stuck to deal with them, to settle with them. But I 
guess the question that I would have of you this morning. I had 
submitted the letter from Mayor Brower for the record that 
outlines their concerns about that. Is it your opinion that the 
State of Alaska should be held financially responsible for the 
Federal Government's responsibility to remediate these wells?
    Secretary Jewell. Senator, I completely agree that the 
legacy wells are a problem that we need to solve.
    They were drilled by the USGS and the Navy years ago to 
access the potential of the National Petroleum Reserve in 
Alaska. It's one of the reasons we have a sense of the resource 
potential there and of course modern techniques have been used 
as well. They do need to be cleaned up.
    I'm pleased that the BLM has done an assessment and has 
shared with the State a priority list of where they would go 
first so that we deal with the worst offenders first. We do 
need money to be able to do that. I would like to think that as 
the resource was assessed in part through the use of these 
wells that the revenue from the resource, State and Federal, be 
used to help in the clean up.
    I think that it is a revenue generator. It puts oil in the 
pipeline.
    Senator Murkowski. But who?
    Secretary Jewell. We need to work on figuring out how to 
pay for it because right now there isn't sufficient money.
    Senator Murkowski. I would agree that we have some very 
difficult budget limitations. We all know that. But I have a 
very difficult time suggesting that those revenues that would 
go to the State that in turn go to the residents of the North 
Slope Borough.
    Again, I will refer you to the Mayor's letter and the 
Commissioner's letter. That somehow or other you think that it 
is right to take those revenues that would go to those 
residents for no value that they have gained from the 
exploration of these wells some 30, 40 years ago. All that's 
left is an eyesore and a level of contamination.
    I want to work with you on a path. But if that path is 
going to mean that moneys that would be going to the State of 
Alaska and the residents of the North Slope are going to be 
choked back that's not appropriate. So I'm hoping to hear you 
say that you're willing to work with us to find a better path 
forward.
    Secretary Jewell. I'm absolutely willing to work with you 
and to find the money that we need to remediate the legacy 
wells and certainly committed to doing that. Any creative 
suggestions you have on how we can fund that, I'd be all ears.
    Senator Murkowski. Let's work on this. We do need to be 
creative. But being creative does not mean that we assess the 
State for the cost of the cleanup that the Federal Government 
is responsible for.
    The other area that I wanted to visit with you on and this 
is, again, a little bit of a rub to Alaska. As you know we 
became a State some 50 odd years ago. Our lands have not been 
yet fully and finally conveyed under the terms of the Native 
Claims Settlement Act.
    Lands that are owed to our native peoples have not yet been 
finally conveyed. We're working on that. We had some good 
discussions about some ways.
    We're thinking creatively. OK, can we use a different 
methodology to do the surveys? The how we reduce our costs to 
still accomplished that same goal. I think that that's a good 
step for us.
    But again, in the proposal that we have before us with the 
budget effectively Alaska, those revenues that would be coming 
to our State, we're saying OK, we will take from you in order 
to complete the conveyances or to pay for those conveyances. I 
cannot understand why any State should ever be expected to 
effectively pay the Federal Government to perform that Federal 
obligation of conveying the lands that have been approved by 
Congress and clearly passed Administrations. Yet somehow or 
other it seems that the Interior Department is suggesting that 
Alaska needs to share in this financial burden.
    So you need to know that, again, I've been pushing on this 
issue since I came to the Senate. We advanced legislation that 
put in place an expedited process. We're still, 9 years later, 
and we still have not yet fully and finally finished these 
conveyances.
    So we need to make better progress on that. We've got more 
in the budget this year. That's helpful.
    But again, we're still looking at decades and decades 
before these conveyances are complete. So I'd like to hear your 
proposal on how we might move forward with that. But again, if 
the expectation is that the State is going to have to pay for 
the conveyances or the costs that are associated with the 
conveyances, that's just not going to work.
    Secretary Jewell. Senator, I'm not aware of anything that 
has suggested the State pay for the cost of the conveyances. So 
I appreciate an opportunity to work with you and better 
understand that aspect.
    Senator Murkowski. What they're suggesting is that a share 
of the mineral payments that Alaska would receive would be 
utilized to help cover the costs for the conveyances.
    Secretary Jewell. OK, I'll look into that.
    On the survey themselves the BLM is really committed to an 
expedited process so that we can move forward. We agree that we 
want to convey these lands. I really appreciate your 
willingness to do an expedited process and use GIS mapping 
techniques because the way the legislation is you put actually 
a physical stake every two miles. You know how impractical and 
expensive that is in Alaska.
    So we'll be working with the BLM to get it moving forward. 
Again, I hadn't heard of the issue about the State paying. 
We'll look into that further and better understand.
    Senator Murkowski. I appreciate you looking into it. The 
other thing I learned in my most recent meeting with Bud 
Crippley from Alaska was that in fact there will be no surveys 
that will be conducted in Alaska this year. He pointed the 
finger to the budget. But if there's no surveys going on at all 
how are we ever going to get this done?
    So if you could look into that aspect as well, I would 
appreciate it.
    Thank you, Mr. Chairman. I've gone over my time. I've got 
another question but I'm going to defer to my colleagues here.
    Senator Heinrich. OK. Thank you, Senator Murkowski.
    Senator Scott.
    Senator Scott. Thank you very much.
    Secretary Jewell, thank you for appearing before us today 
and taking the time to answer a couple of questions. I know 
you're new on the job. So, congratulations on your 
confirmation.
    As it relates to the environmental impact study in the 
Atlantic, we're about running a year late. Have you been able 
to discover why we're running about a year late on the EIS?
    Secretary Jewell. Senator, this is for the geological and 
geophysical survey activity?
    I know that it's in process and that we're doing the 
programmatic EIS right now in order to move forward on that.
    Deputy Secretary, do you know about delays or are we on 
schedule as far as you know?
    Mr. Hayes. Senator, we have been pushing forward on this 
actually. I recall a year ago we accelerated the schedule. My 
sense of it is that we are moving forward in a deliberate pace. 
We are very, very interested in getting this done.
    So we're certainly not dragging our feet. We're telling our 
folks we want this environmental analysis done.
    Senator Scott. Do you believe that you have enough of the 
right folks working on this project as we speak now?
    Mr. Hayes. Yes, yes. We are giving it, again, in this time 
of sequester.
    Senator Scott. Yes.
    Mr. Hayes. It's a challenge. But we are very committed to 
funding that effort and bringing it to completion.
    Senator Scott. The one thing, Mr. Hayes, is to recognize 
that I got this started before the sequester. So we're about a 
year late from our perspective. So one of the questions that I 
have for you is do you have any expectation on what you believe 
will be a part of the completed EIS?
    Do you have any idea what year or anticipations are on what 
the report will show?
    Any indications at all at this point?
    Mr. Hayes. I have no personal knowledge of any special 
items there. My understanding is there's a very vigorous 
analysis that will be put forward. There are consultations with 
the other affected agencies including NOAA in particular. Those 
are proceeding along.
    So we're helpful that this will be and obviously, Senator, 
as you know, an environmental impact statement is a major deal 
particularly for such a large area as this, the Mid and South 
Atlantic, but nothing on the horizon as far as we're aware in 
terms of issues that would be out of the ordinary in terms of 
an EIS.
    Senator Scott. Certainly, Secretary Jewell, you've 
expressed support of moving forward to collect more data so 
that we'll be in a better position realizing that some of the 
data is about 30 years old. So for us it's an important part of 
the equation where they get the revenues and the opportunity 
for job creation off in our Atlantic OCS. From the southland 
perspective we think about the companies that would go out and 
shoot the seismic and perhaps the discover the resources.
    After discovering the resources the question that they're 
going to ask is will we have the opportunity to then gain, to 
get those resources. My question is as you look at that, the 
company's necessity of a return on the investment, what do 
think the prospects are of our ability to move forward and to 
provide the companies with the necessary opportunities to 
recoup their investment?
    Secretary Jewell. Senator, as someone that's spent time 
early in my career in the oil and gas industry.
    Senator Scott. Yes.
    Secretary Jewell. I appreciate not only the importance of 
resource development, but also the timeframe that it takes. 
These are massive investments when you're talking about 
exploring and developing new areas. So I think that this first 
step toward the geological and geophysical analysis is 
important.
    It will take time for industry to analyze that data and to 
decide where their priorities are and where they want to lease. 
We certainly will be there in terms of lease sales to open the 
lands as appropriate. It's not in the 5-year plan that came out 
the 2012 to 2017.
    Senator Scott. Year 2017.
    Secretary Jewell. But the data will be accessible once we 
do the analysis. So companies can plan for that.
    Having been recently out in the Gulf of Mexico, these are 
long term operations. They require infrastructure development 
and planning. In my early career I did some of that development 
and planning. So I think, you know, when 2017 rolls around and 
that 5-year plan is regenerated that will be the opportunity 
for people to actually do the exploration production 
activities.
    Senator Scott. Are there any other obstacles or impediments 
to moving forward, from your perspective, that you would like 
assistance with?
    Secretary Jewell. I think that the programmatic EIS that 
we're doing is going to be really important in identifying if 
those obstacles exist. But there's nothing that I'm aware of at 
this point in time.
    Senator Scott. Thank you.
    Secretary Jewell. Thank you.
    Senator Heinrich. Is that it?
    Senator Scott. Yes, thank you.
    Senator Heinrich. Great. Super.
    We'll do another quick round for those folks who have stuck 
around.
    Senator Murkowski, why don't you go first and then I'll 
wrap up with a couple of questions.
    Senator Murkowski. Great. Thank you.
    Just a couple here to follow up. This follows on Senator 
Landrieu's comments about revenue sharing. It's something that 
she and I have worked on for a period of time. We're hopeful 
that we'll have an opportunity to have that bill presented here 
before the committee so that our colleagues can take a look at 
it.
    In your confirmation hearing you indicated that you'd be 
willing to work with us on the concept. So the question is 
whether or not you've had a chance to look at our legislation 
if you think that this is an approach that you might be able to 
support and work with us on.
    Secretary Jewell. Senator I haven't looked at any specific 
legislation. I know that it's a tricky issue in terms of 
Federal revenues going here and then, you know, what to use to 
support the Federal Government. These are assets in the outer 
continental shelf that are Federal assets.
    So I'm happy to look into the bill language. I haven't seen 
it specifically.
    Senator Murkowski. OK.
    It is when we're talking about, kind of thinking outside 
the box and how we're going to deal with some of the issues 
that are at play. I know that the Chairman has mentioned that 
when we talk about revenue sharing it needs to be broader than 
we have envisioned in the past. It might be able to assist us 
with some of the issues that we face, for instance, on land 
with our Secure Rural Schools funding.
    So I would commend that to you for your review.
    We have had a whole series of hearings and moved some 
public lands bills through the committee already. I'd like to 
think that we can move them through to the Floor and see 
passage on them. But one of the issues that comes up 
continually as we deal with parks and park issues is the fact 
that we have a $13 billion park's maintenance backlog. So a lot 
of the conversation around this Dias is gosh, should we really 
be adding more to the parks when we can't afford to maintain 
what we already have.
    It was noted by yourself and by others that we've got the 
park's centennial coming upon us in just this year after next. 
It seems to me that this would be a great time to really kind 
of re-evaluate how we establish, how we maintain our parks as 
we move into this second century and really also how we build 
support for our parks within our local communities and 
effectively nationwide and whether it's getting support through 
private dollars, whether it's just getting the local people 
engaged and having ownership in their parks. I think that 
that's going to be important for us.
    So just very generically asking if you will work with 
Chairman Wyden, work with myself and other members of the 
committee to review the options and really how we define a path 
forward for the parks as we advance into the second century of 
our National Parks.
    Secretary Jewell. Thank you, Senator.
    There's no question that this historic opportunity, the 
centennial, that will fall on this Congress and this 
Administration is extraordinarily important to seize. I'm very 
happy to work with you and Senator Wyden on whatever we can do 
to address the maintenance backlog on our national parks and 
look more broadly at just the challenges we have in maintaining 
our public lands.
    I will also say that sometimes you've got a willing buyer 
and a willing seller in the Federal Government on private lands 
and it doesn't necessarily increase the costs. So I don't want 
to stop doing, thinking about landscape level issues and what 
we need to do because of the maintenance backlog. We want to 
knock it down. But I think there is, I'm learning, about the 
complexity of land management and landscape level conservation 
and understanding.
    So would really love to work with you and Chairman Wyden 
and others on this committee for a more permanent solution.
    Senator Murkowski. Good. Good.
    Another thing that we have discussed a lot is duplication 
of efforts within government agencies, the redundancies that 
are inherent there. DOI published what they called an inventory 
of programs last week. Under the heading for Bureau of Land 
Management there's a program called Wildlife and Fisheries. 
There's another one called Threatened and Endangered.
    If you look a little further down you see that Bureau of 
Reclamation also has a program called Fish and Wildlife 
Management and Development and Endangered Species Conservation 
Recovery Program. They've got another one Fish and Wildlife 
Management and Development.
    I say all this to suggest that it looks, just from the 
casual observation, that you've got about 24 different programs 
within Fish and Wildlife and then within the other departments. 
I'm not suggesting here that all of these 28 programs in the 3 
bureaus are duplicative. But it does, kind of, beg the question 
as to whether or not they are and what kind of review is 
underway.
    Just, kind of, from a department perspective if you've got 
your folks looking internally to make sure that we are being 
smart in how we are advancing these programs and paying for 
these programs.
    Secretary Jewell. If I could take just a minute to respond. 
These are budget category titles, but I have observed as I've 
gone corridor by corridor and sat down with a lot of people 
that they're actually leveraging each other. There are 
scientific resources that are available in the USGS, in the 
Fish and Wildlife service that are working to support those 
wildlife or fish needs that are in the National Park Service or 
the BLM.
    So I'm looking for duplication of effort.
    Senator Murkowski. OK.
    Secretary Jewell. I'm certainly looking for opportunities 
to streamline where we can. I don't see a lot of overlapping 
effort when you have, sort of, land manager on the ground 
that's trying to do the work with the scientist that may be at 
the U.S. Geological Survey. There are ways that that knits 
together.
    But I appreciate the sentiment that we need to be making 
sure we're not overlapping. I'm certainly committed to doing 
that.
    Senator Murkowski. Good. Good. Knowing that you're all 
looking at that is important.
    Then one final question here. Fish and Wildlife came out 
with their draft conservation plan and their EIS for ANWR. It 
did not include a developmental alternative for gas and oil 
within the coastal plain. I've been told that the service's 
rationale for this was that development requires an act of 
Congress.
    But the draft plan also included some alternatives for 
additional wilderness and wild and scenic rivers which also 
require an act of Congress. So it seems a little bit 
inconsistent there. So the question to you is whether or not 
the conservation plan in the EIS for ANWR will include an oil 
and gas development alternative. If you're not proposing that I 
guess the question would be why would you not consider that?
    Secretary Jewell. I'm going to give a high level answer and 
then ask my colleague, David Hayes, who has been very involved 
in Arctic issues to add more color.
    The President has made it clear that it is not part of his 
agenda to do oil and gas exploration in the Arctic National 
Wildlife Refuge. I support that position. So further details on 
this, David is very immersed in issues around the Arctic and 
has been really committed to the issues there.
    So David, would you mind adding?
    Mr. Hayes. Sure.
    Senator, I believe that the Fish and Wildlife Service was 
consistent in not including as alternatives, alternatives that 
require Congressional action.
    Senator Murkowski. But you would agree that when you have 
an alternative that allows for additional wilderness or wild 
and scenic that that also requires act of Congress.
    Mr. Hayes. Yes.
    Senator Murkowski. Right.
    Mr. Hayes. Yes, absolutely. But in fact all it does is 
there is no actuation of any wilderness designation by an 
agency. There can only be a recommendation.
    Senator Murkowski. Right.
    Mr. Hayes. So and then as the Secretary said, the and of 
course, the law is very clear on the oil and gas side about 
needing Congressional decision before going forward.
    Let me just, if I can, Senator, mention that thank you for 
your Arctic leadership. I just wanted to state publicly that 
the White House came out, as you know, with a new national 
strategy for the Arctic and promised to have some outreach 
sessions in this month, in Alaska as a follow up. We are going 
to go forward with these listening sessions in Alaska at the 
end of next week.
    We will have leadership from across the government in those 
sessions and are taking very seriously the issues that you take 
so seriously. Thank you for your leadership in the Arctic 
generally.
    Senator Murkowski. I appreciate what you have done to help 
us on the Arctic issues. Your leadership in advancing the 
report out of Department of the Interior was very important. 
You will be missed.
    I've said that. I'm not afraid to say it publicly. I think 
you have been a big help to us. I appreciate that.
    Let me just conclude then. Do you know, David, when the 
final plan might be released? Do you have any timeframe on 
that?
    Mr. Hayes. We do not have a timeframe on that, Senator.
    Senator Murkowski. OK.
    Then you mentioned the listening sessions up North. I was 
pleased to see that they will be moving forward. We're trying 
to get things pinned down so that we can make sure that the 
appropriate folks are in place.
    I was a little troubled this morning. There's an article in 
one of our online newspapers. The headline is, are the Interior 
Department's Alaska listening sessions just hot air? It takes a 
little punch at me. It takes a little punch at you, not you 
personally, me personally.
    But I do hope that they're not hot air. I do hope that 
there is real substance that we, as Alaskans, are not only 
engaged but I will reach out to my colleagues from all States. 
New Mexicans need to be reminded that we are an Arctic nation. 
It's not just Alaska as a State. We are an Arctic nation.
    Hopefully these listening sessions will allow us to push 
that reality out so that people know and understand it. So I 
look forward to working with the folks at Interior on that.
    I thank you for your indulgence, Mr. Chairman.
    Senator Heinrich. Thank you.
    Senator Lee, why don't you go next? Then I'll wrap things 
up.
    Senator Lee. Thank you, Mr. Chairman. I also thank our 
witnesses for joining us.
    Madame Secretary, as you've undoubtedly heard from some of 
my Western colleagues on this committee, the potential listing 
of the Greater Sage Grouse under the Endangered Species would 
inevitably have some real far ranging impacts on the people of 
Utah and on the residents of several of our neighboring States. 
As you know the State of Utah has proposed a management plan 
that would protect more than 90 percent of Utah's Greater Sage 
Grouse while significantly limiting the adverse economic 
impacts that these efforts would have. So we see it as a real 
win/win potentially should it be improved.
    Now during your confirmation process you stressed, quite 
repeatedly, that cooperation and coordination with States and 
with all the stakeholders involved would be the hallmarks of 
your tenure at Interior. Can the State of Utah and its 3 
million residents count on your commitment to give serious 
consideration to approving our State management plan for the 
Greater Sage Grouse? Can I count on your commitment to work 
with the State of Utah and with other Western States on this 
issue and on similar issues under the jurisdiction of the 
Department of the Interior?
    Secretary Jewell. Yes, you have my commitment that we will 
work with States. We'll work with private landowners. We'll 
work with everyone that is involved in this.
    The habitat necessary for the Greater Sage Grouse is vast. 
It covers a lot of jurisdictions. The only way we're going to 
really be able to take care of this over the long term is by 
working together.
    Senator Lee. OK. Thank you. I hope you'll take a very 
serious look at the efforts that have been put forward by the 
State of Utah because, again, I think they achieved the 
environmental gains that are necessary, but they do so in a way 
that also respects the needs of our residents, the people on 
the ground that are most affected.
    A recent study by the U.S. Chamber of Commerce reveals that 
from 2009 to 2012 a total of 71 lawsuits against various 
Federal agencies were settled under circumstances that could be 
described as sue and settle, sue and settle cases, sue and 
settle case resolutions. The settlement of these cases directly 
resulted in more than 100 new Federal rules many of which were 
major rules meaning rules that carry an annual aggregate 
economic compliance impact of $100 million or more. While some 
of these cases involved EPA settlements under the Clean Air Act 
and the Clean Water Act, more than a few of them fell under the 
jurisdiction of your department highlighted by some key Fish 
and Wildlife service settlements under the Endangered Species 
Act.
    The sue and settle process that I'm describing allows 
agencies to avoid, in some circumstances, the normal 
protections that are built into the rulemaking process 
including a first review by the Office of Management and 
Budget. But also including, not insignificantly, the public, 
the review process by the public. The opportunity the public 
has to review their proposed rulemaking.
    As your tenure as the Secretary of the Department of the 
Interior begins do you think the practice of using settlement 
agreements and consent decrees to further policy goals is 
consistent with your commitment to how you want to run the 
Department including your commitment to transparency?
    Secretary Jewell. Senator, as a business person you want to 
avoid lawsuits at all costs. I have certainly been struck by 
the amount of lawsuits that are filed against Interior. We're 
trying to uphold the laws. People differ with that and they 
sue.
    As a business person I know that sometimes the most cost 
effective way to deal with a lawsuit is to settle certainly not 
something that I want to make any kind of a practice of. I want 
to avoid lawsuits to begin with by making sure that we have 
parties around the table that understand the law and understand 
what we're up to doing in upholding the law. Certainly 
transparency is something I've been known for in the business 
side and I'm committed to being transparent in this process as 
well.
    I do know that we have laws that have time requirements on 
them such as the Endangered Species Act. We are overwhelmed 
sometimes with the amount of volume that comes in. We work to 
try and address the underlying needs in the most cost effective 
way that we can in dealing with upholding those laws.
    So this is an area that I'm becoming more familiar with 
particularly as all the lawsuits now bear my name. We want to 
avoid lawsuits to begin with. That's going to be my commitment.
    Senator Lee. I understand that. I respect that. I certainly 
understand that, as a businesswoman, when you were involved in 
lawsuits you had an obligation to find resolutions of those 
cases. You also had a natural inclination to defend the most 
important thing for your business and settle only where it was 
reasonably possible without doing harm to your business.
    Settlements involving government are sometimes a little bit 
different because when the aim of the lawsuit is to achieve a 
different policy that can have the effect of a law making 
effort. So where there is not a distinct adverse interest on 
the part of the government with the plaintiff, you do have some 
potential for what some people call, a friendly suit or a 
friendly suit resolution where two people can just agree.
    The government can agree with the plaintiff. Yes, that's a 
good policy. We should implement that. You have de facto law 
making by means of a friendly suit resolution. Do that's the 
problem we're concerned about there.
    Mr. Chairman, if I could have your indulgence to ask just 
another line of questions. I know we're on a short time line. 
Is that a possibility?
    Senator Heinrich. How many do you have?
    Senator Lee. Just one more.
    Senator Heinrich. You bet.
    Senator Lee. OK, so the U.S. Congress recognized the need 
for the development of domestic oil shale resources with the 
passage of the Energy Policy Act of 2005 in which the Congress 
directed in now almost 8 years ago the Department of the 
Interior to establish commercial oil shale leasing program. 
Then following an extensive public process the Bureau of Land 
Management issued a final programmatic EIS for oil shale 
development. It established a commercial oil shale leasing rule 
in 2008.
    Then in 2009 a group of non-governmental organizations 
challenged the 2008 oil shale management plan resulting in a 
settlement agreement with Interior that was followed by new oil 
shale regulations in 2012 that reduced the acreage available 
for oil shale development by almost 75 percent. Just a few 
weeks ago BLM was notified that another group of NGO's is 
planning a lawsuit concerning these new regulations. So with 
the understanding that all these decisions were made during 
Secretary Salazar's decision will you commit to take a fresh 
look at the oil shale leasing program and whether it complies 
with the objectives of the Energy Policy Act of 2005?
    Secretary Jewell. Senator, as I understand we have about 
600 thousand acres available for oil shale development under 
these research and development leases. I think that, you know, 
the realities right now are more economic on oil shale 
development not to be mixed up with shale oil.
    Senator Lee. Right.
    Secretary Jewell. That, you know, there's work to be done 
to assess the value of these resources and their potential for 
the future. Certainly continuing to do that as part of the 
President's All of the Above Energy Strategy and I'm supportive 
of that.
    I'm going to ask my colleague, David Hayes, to provide a 
little more detail as it specifically relates to these 
programs.
    Mr. Hayes. Senator, I would just add that per the previous 
point about settle and sue. This was a situation where there 
was a lawsuit, but what followed was a notice and comment 
proceeding that led to the final rule that's before us.
    Senator Lee. Sure. I understand.
    Mr. Hayes. Right.
    Senator Lee. I didn't intend necessarily to lump that to 
the previous statement.
    Mr. Hayes. OK.
    But I think that our view is that the final rule is solid 
and that we are open for business for demonstration projects in 
the oil shale area.
    Senator Lee. OK, so it sounds like you're prepared to 
defend the 200----
    Mr. Hayes. Correct. We are.
    Senator Lee. OK.
    Thank you, Mr. Chairman. Thank you to both of you for your 
service and for your testimony.
    Senator Heinrich. Thanks, Senator Lee.
    A couple more things I wanted to bring up. I very much 
appreciate the ranking member's comments around the need to 
address the backlog in the Park Service and to be efficient 
with our conservation and public lands dollars.
    I thought I'd bring up a situation we have in New Mexico 
where we currently have a national preserve that is basically a 
one off model, the Valles Caldera National Preserve. It is 
almost an agency in and of itself. As a result their spending 
per visitor right now is 250 per visitor. You drive across a 
two lane road to the Bandolier National Monument and the 
spending is $13 per visitor, oftentimes for the same visitor.
    So I thought I'd bring that up. We are going to be looking 
at legislation on this committee to consider transferring 
management of that to the Park Service to see if we can't 
achieve some level of efficiency there. So I just put that on 
your radar screen.
    I did want to ask a question about the work that the BLM 
has done around renewable energy on public lands. I think 
you've done an incredible, a lot of good work, using existing 
authorities. I would note that Congress has really never 
directly addressed the question of how best to site wind and 
solar projects on public lands. I wanted to get your view as to 
whether there are any additional authorities that you feel 
would help facilitate good siting of renewable projects on 
public lands and what issues you would ask us to consider if we 
look at legislation on this topic?
    Secretary Jewell. Senator, thanks. Thanks for the question.
    One of the things that pretty exciting to me as I enter 
this job is the potential that we have to use modern techniques 
like GIS mapping to better understand the whole Federal land 
management picture. We have done some good work over the last 
few years on understanding the solar and the wind energy 
potential, understanding the underlying environmental 
sensitivities. I think that's very, very useful.
    There could be some things that we would work with you on 
that facilitates the development. Certainly transmission, as 
you're well aware of in your home State, is an important 
element of that. Perhaps there's ways we can work together to 
streamline that as I become more steeped in the rules and the 
lawmaking process.
    David, do you want to add anything to that?
    Mr. Hayes. I would just add, Senator, that I think on the 
wind side, the wind energy guidelines that came out of the 
Federal Advisory Committee effort that included developers, 
conservationists and government officials really do provide a 
template for and criteria for siting that help developers 
understand what types of sites are going to provide the least 
likely conflict with birds and bats and other aviant species.
    We appreciate also your support for the solar siting 
approach that we've done where we've worked collaboratively 
with parties to identify solar energy zones that attract 
industry to the best places, we think. Our sense is that we 
don't need new authority here. But we're certainly open to a 
validation of these efforts. We're very pleased with the 
cooperation across all interests, developers, conservationists, 
tribes, States, Federal interests. Only together we've been 
able to site over 12 thousand megawatts of new renewable energy 
within the last 4 years.
    Senator Heinrich. I will say I very much appreciate your 
efforts and your attention to the transmission issues. That's 
certainly something that has, you know, there's an enormous 
amount of generation right now that is just waiting for the 
transmission for us to be able to move energy potential from 
New Mexico into markets to the West. That is the bottleneck 
right now is being able to get good transmission, well sited 
transmission, to do that.
    Let me ask you one more question and then we'll wrap up. I 
know you have a speaking engagement in a few minutes.
    The Department's 2010 oil and gas leasing reforms introduce 
the master leasing planning process to allow BLM to take a more 
in depth look at areas opened to mineral leasing. I think we 
can all agree that there are many places on our public lands 
where energy development is not only appropriate but often 
times the highest and best use. But there are also other places 
where development may be incompatible with important uses like 
hunting and fishing, watershed protection or the preservation 
of important cultural sites.
    How can the master leasing plans help identify and resolve 
some of the conflicts we've seen there with other resources 
including cultural resources and in particular tribal sacred 
sites?
    Secretary Jewell. Thank you, Senator. This fits right into 
my comment earlier about the potential that we have on 
landscape level conservation marrying together with the science 
of GIS mapping.
    The people on the ground in these communities, tribes know 
their sacred sites. People on the ground in those communities 
know the special places that are very, very important to them. 
They know, you know, the land like the back of their hand.
    Oil and gas companies, mineral development companies 
understand the resource potential as does the U.S. Geological 
Survey. It's important to know those things too so that we can 
help facilitate the right kinds of transactions where there is 
not conflict. If there is substantial conflict we know that up 
front and we can plan accordingly. I think that's really 
useful.
    So David has done some great work in terms of the notion of 
landscape level planning. Landscape conservation cooperatives 
have been really helpful in terms of thinking about water on a 
watershed at a landscape level. Fire management is another 
thing. Sage Grouse habitat.
    We have great potential to accelerate this right now given 
the technological advancements that we have with mapping. We 
just activated Landsat 8 which will give us even more data that 
I think will be helpful. We can overlay those things that 
people know on the ground, like the sacred sites, to better 
understand that and manage the resource effectively.
    Senator Heinrich. I think those tools are going to be quite 
important. We're obviously, in Northwestern New Mexico, we have 
incredible oil and gas resources. We also have some of the most 
important archeological sites, places like Chaco Canyon and 
being able to avoid those conflicts up front is always better 
than trying to reverse engineer once you've got a mess on your 
hands.
    So I would say members of the committee are going to be 
able to submit additional questions in writing. I'd certainly 
ask that you answer those for inclusion in the hearing record.
    I'll defer to the ranking member for your last questions.
    Senator Murkowski. It's not a question, Mr. Chairman. I 
just wanted to make a clarification. When I mentioned this 
article yesterday in hot air with DOI, we've got a couple 
different listening sessions that are going on this week in 
Alaska with Mr. Boudreau. We have the BOEM hearings.
    Apparently that was what the individual was referencing. So 
you've got your listening session next week on the 14th is what 
I understand. I am hopeful that we will have good commentary on 
that.
    So I just want to make sure that we're clear for the record 
here that when we talk about the national Arctic strategy we're 
all on the same page there.
    Then just one final clarification and this relates to the 
question that I had asked about ANWR and the EIS there. It's my 
understanding that NEPA does require that the Department 
analyze all reasonable alternatives for ANWR. This includes the 
oil and gas development.
    So I understand the President's position. I understand the 
position that has been iterated here. But it's my understanding 
that you just can't decide not to include a development 
alternative because you don't have support for that. But that 
the regulations, the CEQ NEPA requires that the Department 
evaluate the reasonable alternatives even if it, the 
alternative, would require an Act of Congress.
    So I would just ask you to look at that. I understand where 
the politics is on this. I'm just wanting to make sure that 
we're complying with NEPA and the requirements out there.
    I apologize for taking so much time. But as the Secretary 
knows and Mr. Hayes knows, when we talk about the Department of 
the Interior and its role in my State, there's a lot we've got 
to talk about. So I appreciate that.
    I look forward to seeing you in Alaska, Mr. Hayes. 
Secretary, I look forward to welcoming you at the end of the 
summer.
    Senator Heinrich. Thanks for joining us. With that this 
hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Hon. Sally Jewell to Questions From Senator Wyden

    Question 1. In March, then Secretary Salazar responded to a letter 
from Sen. Murkowski and me inquiring about the status of the operations 
of the Federal Helium Reserve. The response stated that, under current 
law, the Helium Production Fund will terminate when the Department 
makes its final payment to the U.S. Treasury within 7 days after 
October 1, 2013. According to the letter, ``when the Helium Production 
Fund terminates, the Department will lose the source of funds 
established to operate the Reserve and storage, transport and 
withdrawal facilities and equipment at the Cliffside Field. Absent 
action by Congress this would hinder or prevent management of the 
Reserve, including sales and revenue.'' Can you confirm that October 7, 
2013 is a hard deadline for the continued operation of the Reserve, and 
that the matter requires the urgent action of Congress to prevent a 
supply disruption that will have severe consequences on major sectors 
of the economy, including advanced manufacturing?
    Answer. The House and Senate recently passed H.R. 527, which 
prevents termination of this important program and allows the Bureau of 
Land Management to continue implementing the program, and the enrolled 
bill was signed by the President on October 2, 2013.
    Question 2. What is DOI doing to assist states, like Oregon, who 
are trying to develop Sage Grouse plans and implement conservation 
measures to prevent the USFWS from having to list the Greater Sage 
Grouse on the ESA list?
    Answer. The U.S. Fish and Wildlife Service is committed to working 
with each state within the range of the species, including the State of 
Oregon, to develop a comprehensive conservation plan to address threats 
to greater sage-grouse and to provide timely feedback to states about 
their plans, both during plan development and upon completion of the 
plans. The Service has reiterated this commitment to the Governors' 
Sage-grouse Task Force and has also committed to providing the states 
with a more explicit framework and/or criteria to use to report their 
sage-grouse conservation efforts leading up to the 2015 decision. We 
are hopeful this approach will help states and others accurately 
quantify and qualify the efficacy of collective work to conserve sage-
grouse and allow the Service to conduct a comprehensive and robust 
analysis of the species' status.
    Question 3. With the number of wild horses in holding facilities 
now surpassing 50,000, what concrete steps has the BLM taken to reduce 
the holding population? Has the agency analyzed Herd Areas from which 
wild horses have been eliminated to identify potential habitat areas 
that would be appropriate for reintroduction of horses from holding 
facilities?
    Answer. The BLM's Wild Horse and Burro program is dedicated to 
reducing the population of wild horses and burros currently in holding 
facilities. When rangeland health concerns require the BLM to gather 
and remove wild horses and burros from public lands, the BLM actively 
works to place as many as possible into private care through adoptions 
and sales to good homes. Ford Motor Company and Take Pride in America 
have joined together through the Save the Mustangs Fund in support of 
the BLM's effort to place sale-eligible animals into good homes. In 
addition to humane sales and adoptions, the BLM recently delivered 300 
non-reproducing wild horses to the first wild horse eco-sanctuary in 
Wyoming, and is currently conducting an environmental review for a 
proposed eco-sanctuary in Nevada.
    Under the Wild Free-Roaming Horses and Burros Act of 1971, the BLM 
manages wild horse and burro herds within areas where they were found 
roaming in 1971. Section 1339 of the Act states that nothing in the Act 
``shall be construed to authorize the Secretary to relocate wild free-
roaming horses or burros to areas of the public lands where they do not 
presently exist.'' In many herd areas where the BLM does not manage 
public lands for wild horse and burro use, herd reintroduction at this 
time is not possible because the lands were transferred out of BLM 
ownership; they were removed from wild horse and burro use through 
court decisions; they featured checkerboard land ownerships where water 
sources were not controlled by the BLM; they held substantial conflicts 
with other resource values; or they did not provide critical habitat 
components necessary to support a herd (such as winter range). BLM 
periodically reviews wild horse and burro use of public lands through 
its land use planning process.
    Question 4. The Bureau of Land Management recently re-proposed its 
rule on hydraulic fracturing that would apply to oil and gas operations 
on federal land. I want to encourage you to personally ensure that the 
BLM issues a strong final rule--one that provides for advance public 
disclosure of fracking chemicals; well integrity requirements; and 
sound water management, including baseline and follow-up monitoring.

  <bullet> Advance Disclosure of Fracking Fluids.--Why shouldn't the 
        public get advance notice of what fracking chemicals are used 
        in their vicinity? I understand that the mix of chemicals can 
        change after the drilling begins but why not have advance 
        notice supplemented by updates if the mix of chemicals change?
  <bullet> FracFocus.--BLM proposes to rely on FracFocus, a private 
        not-for-profit entity, as a means of public disclosure. 
        However, I understand that there is no verification of the 
        information that is posted by industry on that site. Also, the 
        site doesn't conform to federal requirements regarding data and 
        record retention. And it's not clear that regulators can 
        enforce if false information is provided on a private website. 
        Will the final rule require that any internet site relied on by 
        BLM for public disclosure address these problems?
  <bullet> Backstop Standard.--At the Committee's Natural Gas hearing 
        earlier this year, Frances Beinecke of NRDC raised an 
        interesting point about having some sort of a national backstop 
        standard to reassure the public that our water resources are 
        protected, given the boom in hydraulic fracturing that is 
        likely to continue for the foreseeable future. What do you 
        think about that?

    Answer. The revised proposal, on which the Department sought public 
comments until August 23, 2013, supports the Administration's 
commitment to an all-of-the-above approach to energy development by 
expanding domestic oil and gas production on public lands in a safe and 
responsible way in order to reduce our reliance on foreign oil imports. 
BLM's current regulations governing hydraulic fracturing operations on 
public and Indian lands have been on the books since 1983 and were not 
written to address modern hydraulic fracturing activities.
    As indicated in the revised proposal, a number of comments were 
received requesting that BLM require up-front disclosure of the 
chemicals proposed for use in fracking fluid. In response, BLM noted 
that an analysis of the impacts from fracking is done as part of the 
National Environmental Policy Act analysis conducted prior to the 
issuance of permits and that, for this purpose, the exact composition 
of the fluid proposed for use is not required because chemicals used in 
the process are generally considered potentially hazardous for the 
purpose of impact analysis and mitigation. Also, operators will be 
aware that the rule requires disclosure of chemicals after operations 
are complete and operators will also be required to certify that the 
fluid used complied with all applicable permitting and notice 
requirements and all applicable federal, state, and local laws, rules, 
and regulations. Finally, operators would also be required to certify 
that wellbore integrity was maintained prior to and throughout fracking 
operations. Through these requirements, BLM believes that the post-
fracturing disclosures and certifications would provide adequate 
assurances that fracking operations protect public health and safety 
and protect federal and Indian resources, and will ensure that the 
public is informed about the specifics of the actual fracking 
operations which are ultimately performed. Moreover, it is the practice 
in the industry for operators to change fracking contractors and for 
the fracking contractors to change the chemicals used for a variety of 
reasons. Thus, a prior disclosure rule would either provide the public 
with information of low reliability, or the operators would have to 
delay operations every time a chemical was changed from its previously 
filed plan. Neither of those options would promote the goals of the 
rulemaking.
    Similarly, comments were received on the FRACFOCUS issue referenced 
in the question and were addressed in the revised proposal. BLM 
recognized and understood that FracFocus is in the process of improving 
the database with enhanced search capabilities to allow for easier 
reporting of information. Moreover, information submitted to the BLM 
through FracFocus will still be required to comply with this federal 
rule, including its requirements that the operator must certify the 
information submitted is correct.
    Finally, the Department agrees that it is important that the public 
has full confidence that the right safety and environmental protections 
are in place. The revised proposed rule will modernize BLM's management 
of hydraulic fracturing operations and help to establish baseline 
environmental safeguards for these operations across all public and 
Indian lands.
    Question 5. The Department of Interior has had an Acting Inspector 
General since February 23, 2009--a period of more than four years--when 
the President appointed Earl Devaney to chair the Recovery 
Accountability and Transparency Board. It is important that the 
Department of Interior have a permanent watchdog who can lead the 300 
employees in its mission to ``provide independent oversight and promote 
excellence, integrity and accountability within the programs, 
operations, and management of the Department of Interior.'' Will you 
work with the White House and the Committee to bring a qualified 
nominee to the Senate for confirmation?
    Answer. This is an important position and we will work with the 
White House to ensure continued excellence and integrity.
    Questions 6-7. Less than a decade ago, energy experts said that 
coal, like natural gas, was a commodity the U.S. would be importing 
rather than exporting. But last year the U.S. exported 125 million tons 
of coal, the most in 30 years. Arch Coal estimates the nation's coal 
export capacity will double over the next five years, with proposed 
coal terminals in Oregon, Washington, as well as the Gulf and East 
coasts. With protection of federal and state revenue in mind, Ranking 
Member Murkowski and I wrote a letter in January that prompted the 
Office of Natural Resources Revenue to begin an audit of coal mined on 
federal land then sold to international buyers.
    What progress has the Office of Natural Resources Revenue and its 
state audit partners made since the audits began earlier this year?
    Answer. In December 2012, ONRR formed a special task force that 
includes our state auditor partners to review U.S. federal coal mines 
located in the Powder River Basin through a risk-based audit and 
compliance action plan. ONRR is also working closely with the Office of 
Inspector General's (OIG) office as needed to provide a further check 
on overseas coal sales.
    To date, the task force has reviewed all sales summaries and sales 
contracts submitted by federal coal lessees to ONRR for all PRB mines/
leases. The goal was to identify whether additional documentation is 
needed to determine if reported transactions are U.S. coal export sales 
from federal leases involving non-affiliated or affiliated marketers or 
brokers and non-affiliated foreign companies. ONRR has also identified 
the universe of ONRR and State partners' completed or current audits of 
PRB coal mines/leases through a review of audit work plans covering 
sales in CYs 2009 through 2011. In addition, ONRR and its auditing 
partners in Wyoming and Montana are auditing all 15 producing federal 
Powder River Basin coal mines in their Fiscal Year 2013 and 2014 audit 
work plans.
    Question 8. The agency is using a risk-based strategy to narrow the 
number of leases and mines that are being audited. How many leases or 
mines have been identified as being in need of an audit, and what 
percentage of leases or mines being reviewed does this group represent?
    Answer. ONRR and its state audit partners are auditing all 15 
producing federal PRB mines for calendar years 2009 through 2011, to 
verify whether export sales are occurring from a mine and whether coal 
lessees are properly valuing coal production under federal statutes, 
lease terms, and regulations.

   Responses of Hon. Sally Jewell to Questions From Senator Landrieu

    Question 1. Do you support the implementation of some form of 
revenue sharing to coastal energy producing states, specifically the 
acceleration of GOMESA?
    Do you believe that allowing coastal states to share in the 
revenues that they produce will allow those states to implement 
important coastal protection measures, protecting invaluable 
infrastructure, wilderness and population centers?
    Answer. The Administration has been clear that all American 
taxpayers, who own the nation's natural resources and public assets, 
should get a fair return from the sale of the public resources. It is 
through continued rigorous dialogue with stakeholders that the 
Department, as steward of our public lands and waters, must strike the 
right balance of the interests of local communities and the public 
owners of the resource as the President's all-of-the-above energy 
strategy is advanced.
    Question 2. Do you see room for improvement in the current 
permitting system for on and offshore oil and gas development?
    Specifically, do you see a way to bring the time required to 
process onshore permits on Federal lands more in line with the time 
required to process permits for practically identical private lands?
    Currently, one issue I hear come up frequently regarding offshore 
permitting is the issue of permits being ``deemed received''- 
essentially, permits are being returned to their submitters multiple 
for spelling and other minor errors before they may be reviewed for 
technical criteria, slowing the process of permit submission and 
review. Do you support a commonsense reworking of this system to allow 
permits which are 100 percent technically accurate, but may have 
differing abbreviations or very minor typos to be considered without 
the process of return and resubmission?
    Answer. The leasing reforms put in place by the Department in 2010 
established an open and environmentally sound process for developing 
oil and gas resources on public lands in a manner that maintains a 
robust leasing system and provides certainty in acquiring federal oil 
and gas leases. We will continue to maximize efficiencies and to work 
with industry and the public to ensure that these resources are 
developed safely and responsibly, while also delivering a fair return 
to the American taxpayer, businesses and communities. As noted at the 
hearing, BLM is also taking steps to implement an online permitting 
system that is designed to reduce the time it takes to process drilling 
permits, and the bureau recently hosted an interagency meeting that 
included executives from multiple agencies to establish strategies for 
decreasing permitting times while improving environmental outcomes.
    Offshore, BOEM has achieved substantial efficiencies in its review 
process for offshore oil and gas exploration and development plans, 
while requiring compliance with the heightened safety and environmental 
protection standards. Exploration and development plans for deepwater 
drilling in the Gulf of Mexico submitted between October 2010 and 
October 2011 averaged 190 days from submission to approval. In 
contrast, since October 2011 these plans have averaged 125 days for 
approval. Similarly, the Bureau of Safety and Environmental Enforcement 
(BSEE) achieved an average review time of 52 days for deepwater permits 
in 2012, down from 83 days in 2011, all while requiring compliance with 
the heightened safety standards. The FY 2014 budget includes a package 
of legislative reforms to bolster and back-stop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these federal resources.
    Question 3. Though immunocontraception tools have been used on wild 
horses for research purposes, the BLM has vaccinated only a relatively 
small handful of horses over the years. The NAS indicates that this is 
the most promising technology that is available to humanely reduce 
population growth without resorting to removals.
    Why has the BLM been seemingly so resistant to embracing and using 
the technology and how will you ensure that the agency begins to fully 
utilize this methodology to control wild horse population growth while 
limited or eliminating capture and removal of animals.
    Answer. The BLM's Wild Horse and Burro program utilizes a variety 
of strategies to ensure herd populations are maintained within the 
land's capacity to support them. Since 1978, BLM efforts to safely and 
sustainably control herd population growth have included support for 
the development of an effective contraceptive agent. Several approaches 
developed in that time were tried but abandoned as ineffective or 
impractical. The BLM currently utilizes the immunocontraceptive vaccine 
Porcine Zona Pellucida (PZP) in the formulations known as ZonaStat-H 
and PZP22; however, appreciable decreases in on-the-range herd growth 
rates as a result of these treatments have not yet been apparent--in 
part because too few mares were treated but also because the duration 
of effectiveness is too short lived. The President's Fiscal Year 2014 
budget provides $2 million in funding for the implementation of 
recommendations made in the National Academy of Sciences (NAS) 
independent review of BLM wild horse and burro management practices. 
The BLM is currently considering the report's findings, and will 
evaluate contraception and population growth suppression 
recommendations for potential implementation on the range. 
Unfortunately, the impacts of the sequestration will be unavoidable and 
will result in difficult choices in future budgets.

   Responses of Hon. Sally Jewell to Questions From Senator Cantwell

      YAKIMA RIVER BASIN INTEGRATED WATER RESOURCE MANAGEMENT PLAN

    Question 1. We've learned that climate change is causing more 
extreme storm events and changing seasonal temperatures and 
precipitation patterns in the Pacific Northwest. Some parts of the 
Cascades have already experienced a more than 30 percent decline in 
spring snow water melt-off over the past five decades, and the April 
1st snowpack at mid and low elevation basins is projected to decline by 
44 percent by the 2020s.
    In the Yakima Basin, agricultural output is highly sensitive to 
water availability, and to potential impacts of climate change that 
increase the probability of water shortages. Expected annual crop 
losses due to water shortage increases are estimated to be $79 million 
by midcentury, roughly six times the historic average losses. While we 
need to begin reducing carbon emissions as much as we can and as soon 
as possible, natural resources will continue to be hurt due to the 
carbon pollution already in the atmosphere. In anticipation of coming 
water challenges, we've been working on long term management plans in 
Washington state. Particularly, the Yakima River Basin Integrated Water 
Resource Management Plan is the product of extraordinary work and 
compromise with many potential long term benefits for both farmers and 
the environment.
    The tens of millions of dollars that Washington State has already 
contributed and is planning to contribute into the Integrated Plan 
demonstrate the commitment of a diverse group of stakeholders to 
ensuring adequate water supplies in Yakima valley and adequate flows 
for fish as the region faces increasingly erratic snow fall patterns. 
While we appreciate the Administration's inclusion of $8 million in its 
FY14 budget for enhancement projects in the Yakima River Basin, there 
will have to be a significant federal commitment over the long term to 
make this happen and realize all of these benefits. Former Secretary 
Salazar came to the Yakima Valley and expressed support for these 
efforts. Will you continue support for the Integrated Plan at the 
federal level, and will you give due consideration for funding projects 
on the Yakima River as part of the FY15 budget process that is already 
underway?
    Answer. The Administration's FY 2014 budget request included $8 
million for the Yakima River Basin Water Enhancement Project, and due 
consideration will be given to funding programs and projects on the 
Yakima River as part of the FY 2015 budget process. In the meantime, 
the Department continues to partner with the Washington State 
Department of Ecology on the Yakima River Basin Integrated Water 
Resource Management Plan (Integrated Plan), along with the Yakama 
Nation, irrigation districts, environmental groups, and local and 
county governments.
    Ongoing Departmental activities in the Yakima Basin include the 
completion of the Yakima River Basin Study under the Bureau of 
Reclamation's WaterSMART Basin Study Program, jointly funded with the 
Washington State Department of Ecology; coordination with basin 
stakeholders to implement early action items from the Integrated Plan; 
funding early action items such as the Manastash Creek Project to 
increase instream flows and the Cle Elum Fish Passage; and the release 
of the Final programmatic environmental impact statement in March 2012. 
Reclamation and the Washington State Department of Ecology developed 
the proposed Integrated Plan, which has the strong support from basin 
stakeholders.

                        WOLF MANAGEMENT FUNDING

    Question 2. Montana and Idaho received over $500,000 in FY11 and 
FY12, and Wyoming has received over $300 over that time for wolf 
management activities. Over that same period, Washington, which was the 
only one of these states that currently had Endangered-Species-Act-
listed wolves present, is expected to receive only $50,000 in FY13 for 
wolf activities. Washington received only $100,000 in FY12.
    Do you feel that this disparity in funding levels is fair and 
equitable, given the greater burden on Washington State for managing 
the recovery of wolves under the Endangered Species Act? Will you work 
with the Washington State Department of Fish and Wildlife to ensure 
that adequate resources are available to implement the wolf recovery 
plan in Washington state?
    Answer. The U.S. Fish and Wildlife Service has been working closely 
with the State of Washington on their recovery plan for gray wolves and 
will continue to do so. Generally, once a species is delisted, the 
amount of funding available to assist in their management is reduced. 
When a species is delisted, a minimum of five years of post-delisting 
monitoring is required under the Endangered Species Act. Wyoming, 
Montana, and Idaho have and will continue to receive funds to support 
post delisting monitoring efforts until the five year period ends. Last 
year FWS also provided recovery funds to Oregon and Washington to 
assist in building capacity for wolf management and is also providing 
recovery funds this year.

   Responses of Hon. Sally Jewell to Questions From Senator Stabenow

    Question 1. The State of Michigan is home to 36,000 miles of rivers 
of streams, many of which flow through major cities like Detroit, 
Flint, Grand Rapids and Kalamazoo. As you can imagine, these rivers 
face many challenges in an urban setting, including contamination, fish 
passage and spawning problems, and pollution run off. I am pleased that 
the Urban Waters Federal Partnership, which includes the Department of 
the Interior, will be working with the City of Grand Rapids on 
rehabilitating the stretch of the Grand River that runs through the 
city. This work is important in tackling problems that this river has 
faced for decades and serves as a good example of how people at the 
local, state, and federal levels can work together to support urban 
waterways nationwide. Could you please describe the plans of the 
Department of Interior's to work with our nation's cities on providing 
cleaner, safer rivers for our urban areas?
    Answer. The Urban Waters Federal Partnership is an innovative union 
of thirteen federal agencies that is improving coordination and 
collaborating with local community-led revitalization efforts. This 
program is a key component of the America's Great Outdoors initiative. 
By uniting landowners, businesses, nonprofit organizations, tribes, and 
local, state and federal agencies, we can lead the efforts to stop 
pollution of the waterways and make them safe for recreational use. In 
2013, Grand Rapids was selected as one of 20 AGO national urban 
projects, as well as one of eleven new Urban Waters Federal Partnership 
locations. America's cities serve as centers for innovation and engines 
for economic growth. By coordinating efforts of federal agencies, and 
collaborating with community revitalization efforts, we can improve our 
nation's water systems and promote their economic, environmental, and 
social benefits.
    Question 2. As you know, the National Park Services is facing 
$153.4 million in cuts due to sequestration. The timing of these cuts 
are especially concerning as we approach tourism season in the State of 
Michigan. My state is home to five national parks that attract millions 
of visitors each year, generating over $159 million for the economy.
    The parks play an integral role in enhancing communities, business, 
and Michigan's way of life. For example, Isle Royale in Michigan's 
Upper Peninsula contributes an estimated $2 million to nearby 
communities. However, due to the cuts forced by sequestration, the park 
is shutting down facilities, reducing law enforcement, and will not be 
hiring staff to ensure visitors have access to safe drinking water. 
This will undoubtedly affect not only how the park functions, but the 
economic benefit the park provides for local communities.
    What effect are you expecting the sequestration cuts to have in 
terms of economic impact and attendance at our nation's parks?
    Answer. In planning for the sequestration cuts, the National Park 
Service (NPS) took care to minimize the potential negative effects of 
sequestration on visitors. However, with a reduction of this magnitude, 
implemented in a compressed timeframe of seven months, the impacts are 
not entirely avoidable. The NPS has delayed road openings and reduced 
hours of operation for programs and services. In addition, the NPS has 
hired about 1,000 fewer seasonal employees for the summer of 2013 than 
were hired last year and will leave approximately 900 permanent 
vacancies unfilled for the remainder of FY 2013. These actions are 
resulting in some diminished services for visitors. In addition, as 
parks adjust operating seasons and facility staffing schedules, we 
expect to see negative impacts to park entrance fee revenue, concession 
revenue, and the economies of gateway communities. However, we do not 
know the impact sequestration is having on park attendance, since 
attendance levels are based on a variety of factors.
    Question 3. As you know, the Department of Interior is a member of 
the Great Lakes Interagency Task Force and shares responsibility for 
providing funds through the Great Lakes Restoration Initiative.
    I am glad the President's FY2014 Budget proposes to at least keep 
funding for the Great Lakes Restoration Initiative at levels similar to 
FY2013. It is imperative that the federal government continue to focus 
on projects that will improve and protect this region.
    Since the start of the Initiative, the Great Lakes are experiencing 
a resurgence in Lake Sturgeon and other native fish populations, as 
well as reduced contamination by toxins. And as our hunters and anglers 
can attest, natural habitat has been restored in many areas.
    The GLRI has also helped introduce new methods to combat the 
destructive sea lamprey eel, and is a key source of funding to address 
the growing threat of Asian carp to the Great Lakes region.
    Can you please describe how the Department of Interior plans to 
work with other federal agencies to combat the spread of Asian carp and 
other invasive species?
    Answer. Protecting the Great Lakes ecosystems and fisheries from 
invasion by the Asian carp is a significant challenge. Confronting this 
issue is a major priority of the Great Lakes Restoration Initiative 
(GLRI), an unprecedented regional collaborative effort under the Obama 
administration to restore ecosystem health in the Great Lakes. The FWS 
and the USGS, partners in the implementation of the GLRI, serve on the 
Asian Carp Regional Coordinating Committee, a multi-agency body that 
coordinates an intensive, comprehensive strategy with federal, state 
and local partners to stop the spread of Asian carp in the Great Lakes. 
The FWS is also providing technical assistance and support to the Great 
Lakes states to monitor for the presence of Asian carp.
    The USGS is researching use of seismic technology to contain Asian 
carp; determining the potential use of pheromones or food cues to herd 
Asian carp; and developing and improving existing molecular tools to 
detect Asian carp in areas of low abundance. USGS researchers are also 
working closely with private industry to develop chemical formulations 
for new control methods that can target specific aquatic invasive 
species. However, we note that the impacts of the sequestration will be 
unavoidable and will result in difficult choices in future budgets.

   Responses of Hon. Sally Jewell to Questions From Senator Murkowski

    Question 1. The Land and Water Conservation Fund budget request is 
for a funding level of $600 million, which represents a nearly $300 
million increase above the current level for DOI agencies and the 
Forest Service. Shouldn't these funds be used to pay down our 
maintenance backlog? With such an enormous maintenance backlog, why 
would DOI focus such a large amount of money on acquiring more federal 
land.
    Answer. The commitment for the Land and Water Conservation Fund, 
proposed by President Kennedy and enacted in 1964, is to use a portion 
of the proceeds from the development of our public lands and waters for 
investments in conservation and recreation for the benefit of all 
Americans. Enactment of a mandatory LWCF program would ensure continued 
funding for this program designed to balance investments in 
conservation and recreation with the development of oil and gas 
resources. This funding will provide stability needed for agencies and 
States to make strategic, long-term investments in our natural 
infrastructure and outdoor economy to support jobs, preserve natural 
and cultural resources, bolster outdoor recreation opportunities, and 
protect wildlife. The Department also takes seriously its 
responsibility to maintain facilities and infrastructure, and the 
budget request proposes $4.7 billion in fiscal year 2014 for core land 
management operations, a $141 million increase from 2012. Within this 
is $585 million for maintenance of our parks, refuges, and public 
lands, a $5 million increase from 2012. The Department is committed to 
working with the Committee to explore available opportunities for a 
long-term solution to these funding issues.
    Question 2. More generally, how do you reconcile additional federal 
land acquisition at this time of staggering national debt and 
maintenance backlogs?
    Answer. The land acquisition component of our budget request is a 
long-term investment as part of a balanced approach intended to protect 
our natural and cultural treasures and support the robust outdoor 
recreation economy. LWCF funds are used to acquire parcels to create 
and maintain a nationwide legacy of high quality recreation areas and 
facilities and to stimulate non-federal investments in the protection 
and maintenance of recreation resources across the United States. 
Strategic land acquisition allows DOI to join with partners to conserve 
significant landscapes before they require more expensive efforts to 
sustain them, resolve conflict, and reduce landscape fragmentation 
making it more efficient to protect wildlife habitat, respond to 
wildfires, and other natural disasters and to improve access to 
recreational opportunities. The program also provides matching grants 
to states and local governments for the acquisition and development of 
outdoor recreation areas, helping to create and maintain nationwide 
high-quality recreation areas and to stimulate non-federal investments 
in recreation resources. Permanent authorization and mandatory funding 
also provide certainty for planning and accomplishing our priority 
conservation efforts, coordinated in concert with our state and tribal 
partners.
    Question 3. Recently, the National Park Service has closed a number 
of preserves in Alaska to certain methods of bear and wolf hunting or 
shortened the hunting seasons as defined by the Alaska Board of Game. 
When instituting the closures, the NPS has cited ``Park Values'' in 
those closures. Please provide a definition of ``Park Values.'' Please 
be specific.
    Answer. In the last several years, the State of Alaska has adopted 
measures to reduce predators in order to increase game (generally moose 
and caribou) for human consumption. State regulations that seek to 
manipulate natural wildlife populations for human consumption are 
inconsistent with NPS statutes, regulations, and policies. Section 101 
of the Alaska National Interest Lands Conservation Act (P.L. 96-487) 
cites ``values'' among the purposes for establishing conservation 
areas. Section 1313 of the Act authorizes NPS to designate zones where 
and periods when to close or restrict hunting in preserves for reasons 
of public safety, administration, floral and faunal protection, or 
public use and enjoyment. Additional definition of park resources and 
values are found at Section 1.4.6 of the 2006 NPS Management Policies.
    Question 4. Do you believe that the State of Alaska has the right 
to manage wildlife within the borders of the State? When is it proper 
for the federal government to reverse State Board of Game decisions?
    Answer. In general, the State of Alaska manages wildlife within the 
State. In some cases, however, the federal government must act to 
ensure that State measures do not compromise wildlife conservation and 
management actions mandated by federal law. By law and policy, non-
conflicting State general hunting and trapping regulations are adopted 
on lands within the U.S. Fish and Wildlife Service (FWS) National 
Wildlife Refuge System (NWRS) and on National Park Service (NPS) 
Preserves. However, there have been instances when State regulations 
created direct conflicts with federal statutes and policies underlying 
the management of NWRS and NPS lands. In those instances, it is 
appropriate for the federal government to act to supersede state 
regulations. For NWRS lands in Alaska, a number of statutes provide 
authority and directives, including the following three key statutes: 
the Alaska National Interest Lands Conservation Act, the NWRS 
Administration Act (as amended), and the Wilderness Act. In addition, 
FWS policies 601 FW 3 (Biological Integrity, Diversity, and 
Environmental Health) and 610 FW 2 (Wilderness Stewardship Policy) 
provide guidance as to actions that are allowable on NWRS lands.
    Practices that are counter to NWRS requirements are also 
inconsistent with NPS statutes, regulations, and policies on wildlife 
management and hunting. Additionally, Title VIII of the Alaska National 
Lands Conservation Act provides for a subsistence priority on federal 
public lands in Alaska. Accordingly, it is also appropriate for the 
Federal Subsistence Board to override the State of Alaska's decisions 
if those decisions were contrary to Title VIII of ANILCA. Finally, we 
note that before regulations are issued, the proposals are subject to 
public notice and comment including from the State of Alaska, tribes, 
localities and interested stakeholders.
    Question 5. Last month, BLM released new draft regulations on 
hydraulic fracturing. While the new proposal did make some improvements 
over the previous draft, states are best positioned to regulate 
hydraulic fracturing that occurs within their borders. BLM appears to 
recognize the important role states play by including provisions that 
would allow for a ``variance'' from these rules when state regulations 
``meet or exceed'' federal law. However, it is unclear how this 
variance process would work.
    Could a blanket variance from the regulations be provided if a 
state's rules ``meet or exceed'' federal law? If not, why not, and 
which regulations could a state not obtain a variance from?
    Answer. The revised proposed rule would allow for two kinds of 
variances. One would be proposed by an operator that has a technology 
that will be as effective in protecting the resources as a requirement 
in the rule. The other would be developed with a state or a tribe and 
would apply to all lands within that state or tribal lands, or in 
specific fields or basins.
    An approved variance would allow the use of an alternative 
standard, technology, or process that meets or exceeds the hydraulic 
fracturing rule's protections of the public's resources and lands. 
However, variances are not necessary in many of the situations where a 
state's regulation meets or exceeds standards in the hydraulic 
fracturing rule. If an operator, through compliance with state rules, 
is automatically meeting the requirements of the hydraulic fracturing 
rule, no variance is necessary.
    In those cases where compliance with state rules would not 
automatically put the operator in compliance with the hydraulic 
fracturing rule, the revised proposed rule would allow the BLM to 
approve a variance that would apply to all lands within a field, a 
basin, a state or within Indian lands and that would be based on the 
BLM's determination that it will meet or exceed the objectives of the 
regulation. The variance process would allow the BLM to work with 
States or tribes to appropriately adapt the regulatory requirements to 
the unique geology of an area or defer to a standard, technology, or 
process required or allowed by State or tribal government, as long as 
application of the standard, technology, or process meets or exceeds 
the objectives of the hydraulic fracturing rule. BLM would issue the 
variance in cooperation with the state or tribe. The variance would 
apply only to the requirements of the hydraulic fracturing regulations.
    Question 6. Once it's been determined that the state's regulations 
``meet or exceed'' federal law, what federal obligations would remain 
for the regulated entity?
    Answer. The hydraulic fracturing rule contemplates that variances 
would be granted as to specific requirements under it. If BLM in 
cooperation with a state has issued a variance from certain provisions 
of the hydraulic fracturing regulation, then compliance with the state 
rules specified in the variance will be deemed compliance with the 
specific provisions of the fracking rule. All requirements of the 
Mineral Leasing Act, or the Mineral Leasing Act for Acquired Lands, 
other federal statutes and other all regulations would continue to 
apply to all lessees and operators.
    Question 7. BOEM is in the process of developing Arctic-specific 
regulations for the exploration and development of Alaska's OCS oil and 
gas resources. Exploration has been delayed in part because of the 
regulatory uncertainty surrounding oil and gas projects in the Arctic 
OCS.
    What is the timeline for the development of these regulations? Is 
it your intent to have these regulations in place in time for a 2014 
drilling season?
    Answer. The Department plans to have proposed Alaska OCS 
regulations published in the Federal Register by the end of 2013. As 
part of the process, the Department held Listening Sessions to obtain 
public comments in Anchorage and Barrow, Alaska, on June 6 and 7, 
respectively. We anticipate developing a performance-based approach 
that will fully inform BOEM and BSEE how lessees plan to achieve safe 
operations under the operating conditions likely to be experienced 
while drilling and while transporting equipment into and out of the 
Alaska operating theater.
    Question 8. How will you intend the new regulations to impact 
Exploration Plans and Oil Spill Response Plans for 2014?
    Answer. There have been no proposals received for 2014. Since it is 
unlikely the regulations will be in place for 2014, if a proposal were 
to be submitted for 2014, appropriate Arctic-specific standards would 
be put in place as conditions of approval for Exploration Plans and Oil 
Spill Response Plans.
    One of the goals of the rulemaking is to codify and further develop 
Arctic-specific standards that were applied during the 2012 drilling 
season. As a result, these standards would be in place for all 
companies that may propose drilling offshore Alaska, rather than impose 
the standards on an operation-by-operation basis.
    Question 9. What will the stakeholder engagement process look like?
    Answer. BOEM and BSEE are already actively engaged in obtaining 
stakeholder input on the development of the proposed Alaska OCS 
regulations. The stakeholder engagement process began with public 
outreach efforts in the form of Listening Sessions, held in Anchorage 
and Barrow, on June 6 and 7. Public comments will also be accepted 
through Regulations.gov. In addition, BOEM and BSEE held more detailed 
meetings with industry, non-governmental organizations, State of 
Alaska, local government, and Native Alaskans and Tribes in Anchorage 
on June 17 through 19. The purpose of these follow-up meetings was to 
obtain a more comprehensive understanding of concerns and criteria for 
consideration in the proposed rules.
    Stakeholder comments will be used to develop the scope of the 
Alaska OCS regulations and identify appropriate issues applicable for 
BOEM and BSEE oversight to ensure safe and responsible oil and gas 
exploration, development, and production on the Alaskan OCS. BOEM and 
BSEE will develop draft regulations that addresses issues and goals 
identified during the comment period.
    The proposed Alaska OCS regulations will be published in the 
Federal Register, and stakeholder input will again be solicited.
    Question 10. BOEM has worked with NMFS on the EIS for the impacts 
of oil and gas activities in the Beaufort and Chukchi Seas. There are 
major problems with this document, including development alternatives 
that are not realistic and the lack of participation from relevant 
agencies.
    The Fish and Wildlife Service expressly declined to participate in 
the EIS, yet the EIS still analyzes impacts to polar bears and 
walruses--species for which the Service has trust responsibility. Why 
was this approach taken? Will these species be removed from the next 
draft? If not, please explain why not.
    Answer. The U.S. Fish and Wildlife Service declined to be a 
cooperating agency on the Arctic EIS in 2010 because it had recently 
completed Environmental Assessments (EA) on the effects of oil and gas 
activities in the Chukchi and Beaufort Seas on polar bears and Pacific 
walruses in conjunction with issuing Marine Mammal Protection Act 
Incidental Take Regulations (ITRs). The potential effects of oil and 
gas activities on polar bears and Pacific walruses had been adequately 
addressed in the ITRs and effectively considered in the EAs. Instead, 
the Service offered to provide copies of these EAs and an informal 
review and comment on the Draft EIS. The Service is currently reviewing 
the Draft EIS and, as appropriate, will provide feedback to National 
Marine Fisheries Service (NMFS).
    Since both the polar bear and Pacific walrus occur in the area of 
the Arctic EIS, the Service expects that NMFS would retain discussion 
of each in the Final EIS. The National Environmental Policy Act 
requires that all resources in an action area are analyzed in an EIS 
regardless of which agency has jurisdiction. Because polar bears and 
walruses are important resources in the Arctic region, NMFS must 
analyze any potential impacts to them.
    Question 11. The new draft also appears to cap each company to one 
drilling rig at a time per Sea. This is inconsistent with Exploration 
Plans previously submitted and approved by BOEM. Is it BOEM's intent to 
limit exploration in this way? If it is, what is BOEM's rationale for 
the change of course? If it isn't, will BOEM clarify this point in the 
next draft?
    Answer. NMFS is the action agency on the Draft Supplemental EIS 
(SEIS). The purpose of the Draft SEIS is to analyze the potential 
environmental impacts of seismic and exploration activities for the 
purpose of informing NMFS' decisions regarding authorizations for the 
incidental take of marine mammals under the Marine Mammal Protection 
Act.
    The seismic and exploration activities analyzed in the Draft SEIS 
are not limited to one drilling unit at a time per sea per company. The 
alternatives analyzed in the Draft SEIS consider up to four drilling 
units operating in each sea at one time.
    It is important to note that a NEPA document is not a decision 
document; rather, it is an analysis of potential environmental impacts 
associated with particular activities. BOEM will use the information in 
the Draft SEIS, as appropriate, to inform its own decisions for 
specific projects.
    Question 12. The new draft appears to have no timeline--for 
example, the last draft covered a 5-year period, this draft does not. 
Is there precedent for an environmental document with no timeline? What 
was the rationale for an open-ended document?
    Answer. The Draft Supplemental document provides an analysis of the 
potential environmental impacts of a reasonable range of OCS activities 
that changes and adds to the analysis begun in the 2011 Draft EIS.
    Question 13. How do you plan to ensure that this document is not 
used to limit exploration in the Arctic?
    Answer. As previously noted, the Draft SEIS is not a decision 
document but is an analysis of potential environmental impacts 
associated with particular activities. BOEM will use the information in 
the Draft SEIS, as appropriate, to inform its own decisions for 
specific projects, and all decisions made will be consistent with 
statutory authority.
    Question 14. The Fish and Wildlife Service's draft conservation 
plan and EIS for ANWR did not include a development alternative for oil 
and gas in the coastal plain. The Service's rationale for this omission 
appears to be that development requires an Act of Congress. However, 
the draft plan included several alternatives for additional wilderness 
and wild and scenic rivers, which also require an Act of Congress.
    Will the final conservation plan and EIS for ANWR include an oil 
and gas development alternative? If not, why not? And if the reason 
that the oil and gas development alternative was omitted is that, as a 
policy matter, the President does not favor oil and gas development for 
ANWR, on what legal basis has the oil and gas development alternative 
been omitted?
    Answer. The final conservation plan and EIS have not yet been 
finalized and, as such, it would not be appropriate to speculate as to 
the content of any final documents. However, any additional exploration 
would require Congressional authorization because it is currently 
prohibited under the terms of the Alaska National Interest Lands 
Conservation Act.
    Question 15. When do you expect the final plan to be released?
    Answer. While there is no date set for release of the plan, the FWS 
has completed its public engagement process and the plan and companion 
EIS are currently under review.
    Question 16. Last month, the State of Alaska presented an oil and 
gas resource evaluation and resource proposal for ANWR and offered to 
provide $50 million to help complete seismic work. Does the Department 
intend to move forward with the State's proposal? If not, why not?
    Answer. As noted in response to Q. 14, any additional exploration 
in the coastal plain would require Congressional authorization because 
it is currently prohibited by the terms of the Alaska National Interest 
Lands Conservation Act.
    Question 17. The U.S. Geological Survey has steadily reduced the 
amount of geological surveying that it conducts. These activities 
accounted for less than 9 percent of the USGS budget in FY 2012. The 
rest was spent on facilities, climate change research, and other 
activities. Yet the USGS has managed to use hyperspectral imaging to 
map 96 percent of Afghanistan with DOD funding. But only 5 percent of 
the U.S. has been mapped using these same technologies.
    When the Afghan data was released, a DOD official stated that ``The 
mineral resources in Afghanistan have the potential to completely 
transform the nation's economy.'' I agree that surveying is important, 
and that it facilitates investment, but American mineral resources 
provide an equally significant opportunity to transform our own 
economy.
    For this reason, I sent a letter to the President--with a dozen of 
my Senate colleagues--explaining that we believe the next nominee for 
Director of the USGS should be an economic geologist. The position of 
USGS Director remains vacant, and it is clear to me that someone with a 
background in economic geology would be best suited to restore an 
emphasis on the activities contemplated by the agency's Organic Act. Do 
you agree?
    Please share your perspective on mission creep at the USGS over the 
years, and any thoughts you might have on how to restore the agency's 
focus on conducting geological surveys.
    Answer. In 2014, the USGS will celebrate 135 years of providing the 
Nation with reliable scientific information. The Administration is 
evaluating potential nominees who will ensure strong leadership is 
brought to the USGS.
    The Department, mainly through the USGS, serves the Nation by 
providing reliable scientific information to describe and understand 
the Earth; minimize loss of life and property from natural disasters; 
manage water, biological, energy, and mineral resources; and enhance 
and protect our quality of life. Research on and assessments of the 
location, quantity, and quality of the Nation's and world's mineral and 
energy resources, including economic and environmental effects of 
resource extraction and use, are supported through a range of USGS 
programs and provide valuable contributions to the President's ``all-
of-the-above'' strategy for energy development. The USGS continually 
works to enhance its ability to bring its core strengths to bear on the 
challenges the Nation faces today and into the future.
    Conducting geological surveys remains an important component of the 
USGS mission. Application of remote sensing technologies, such as the 
hyperspectral survey of Afghanistan funded by DOD, here at home in the 
United States is helping to delineate areas that may contain concealed 
mineral resources. A survey released at the beginning of this year of 
the U.S. mid-continent conducted by USGS minerals scientists imaged 
deep subsurface structures similar to those associated with mineral 
resources now being mined in Canada. The USGS's role in understanding 
the Nation's mineral endowment is essential to supporting national 
security and a robust economy. However, assessments of mineral and 
energy resource potential, using tools such as geological surveying or 
remote sensing, are but one component of the USGS's activities to 
produce decision-ready information. For example, in early September the 
USGS made available as part of its Alaska Mapping Initiative more than 
400 new topographic maps for the State of Alaska. These digital, 
layered maps update foundational data for the State and replace the 
existing 50 year old maps.
    The 2014 budget requested support for several programs that will 
continue to enhance our understanding of domestic energy and mineral 
resources including $28.3 million for the National Cooperative 
Geological Mapping Program, which advances the understanding of earth-
surface processes, groundwater availability and quality, and energy and 
mineral resources; $46.4 million for the Minerals Resources Program to 
support data collection and research on a wide variety of nonfuel 
mineral resources; and $31 million for the Energy Resources Program, 
which addresses the challenge of increasing demand for energy sources 
by conducting basic and applied research on geologic energy resources 
and on the environmental and human health impacts of their production 
and use.
    Question 18. What is the process and current status of nominee 
selection for USGS Director?
    Answer. Science plays an important role at the Department and this 
is an important position. The Administration intends to ensure that 
USGS remains a world leader in basic research, and as part of that 
commitment we are reviewing highly qualified candidates for this 
position.
    Question 19. Alaska is the largest state in the United States. It 
has roughly 229 million acres of land in federal ownership, more than 
any other state in the country. The federal lands in Alaska alone 
exceed 36 percent of the total land area of the state of Texas, the 
second largest state in the nation. As a result, PILT payments make up 
the largest percent of federal land payments in Alaska. PILT payments 
have not gone out yet but are expected to go out sometime this summer. 
How will sequestration affect PILT payments?
    Answer. The 2013 authorized level for PILT payments is $421.7 
million, which was reduced by $21.5 million due to sequestration. After 
administrative expenses, a total of $399.8 million is allocated for 
payments to counties.
    Question 20. When does the Department plan to make its PILT 
payments to states?
    Answer. On June 13, 2013, The Department announced it will be 
making payments to counties totaling $399.8 million; and payments were 
made that day to over 1,900 local governments. A breakdown of payments 
by state and county can be found at the following website: http://
www.doi.gov/pilt/county-payments.cfm
    Question 21. You recently described the condition of our western 
forests as a tinderbox and called for more focus on reducing the 
hazardous fuel loads on public lands. Yet, the FY2014 budget proposal 
for the Department, if enacted, would result in steep budget cuts to 
your hazardous fuels programs--a 50 percent cut. What is the rationale 
behind these budget cuts?
    Answer. The budget request provides funding to cover anticipated 
preparedness and suppression needs, and we developed a sequestration 
implementation plan that preserves our fire response capabilities in 
the short term. We have concerns that long-term effects of the 
sequestration are unavoidable. One of the difficult choices that this 
budget makes is a reduction to the hazardous fuels budget.
    Question 22. What do you understand the relationship to be between 
the Department's hazardous fuel reduction programs and its wildfire 
management program?
    Answer. The Department's Wildland Fire Management Program is a 
Department-wide program that funds fire preparedness, suppression, and 
rehabilitation activities carried out by the Department's land 
management bureaus (and the Bureau of Indian Affairs). Generally, 
hazardous fuels reduction activities are part of that program and are 
carried out to remove or modify wildland fuels to reduce the risk of 
intense wildfire behavior, lessen post-fire damage, limit the spread 
and proliferation of invasive species and diseases, and restore and 
maintain healthy, diverse ecosystems. Along with improving fire risk 
reduction and suppression, restoring fire-adapted ecosystems, and 
promoting community assistance, hazardous fuels reduction is one of the 
goals identified in the National Cohesive Wildland Fire Management 
Strategy. Consistent with the Strategy, the Wildland Fire Management 
Program is continuing to focus fuels reduction on the highest priority 
projects in the highest priority areas resulting in the mitigation of 
risks to communities and their values.
    Question 23. In Northwest Alaska, with the increase in ships 
transiting the Northwest Passage, there is a growing need for America 
to develop a northern Arctic port that can be used to base 
environmental cleanup equipment to aid with shipping accidents or oil 
and gas development or other activities in the Arctic. Soon, the U.S. 
Coast Guard will be turning back to your Bureau of Land Management a 
several thousand acre tract at Port Clarence, the site of now-abandoned 
Loran Station. Alaska's Bering Straits Native Corporation, the 
corporation representing Alaska Natives in the area, selected that site 
back in 1976 as one of its prime land selections under terms of 1971's 
Alaska Native Claims Settlement Act. The Corporation is perfectly 
willing to reserve for the Coast Guard areas at Port Clarence for it to 
use for docks and air facilities for future operations. Options should 
be opened to speed development of one or more facilities to handle 
Arctic development needs.
    Will you commit to work with Alaska to accelerate the Port Clarence 
land conveyance to Bering Straits once the Coast Guard's needs have 
been fully met in any agreement?
    Answer. The Department supports the goals of completing ANCSA 
entitlements as soon as possible so that Alaska Native corporations can 
take advantage of the economic benefits of completed entitlements. BLM 
is committed to exploring opportunities for completing the Port 
Clarence land conveyance in a manner that ensures the Coast Guard's 
needs are met in a timely fashion.
    Question 24. You recently stated that it is the Obama 
administration's position to build a ``strong renewable energy 
portfolio on our public lands and water.'' This is evident in the 
Administration's approval of 45 solar, wind, and geothermal power 
projects on over 250,000 acres of federal land since 2009. Missing from 
this equation however, are sustainable hydroelectric power projects. 
Hydropower remains a viable, proven source of clean renewable energy 
and must be a part of our public lands energy portfolio.
    Given ecological advancements in hydroelectric generation, the 
demand advantages of pump storage, and the promise of marine 
hydrokinetics, is this administration willing to take another look at 
hydropower projects on public lands and water?
    Answer. Hydropower remains a clean and efficient way to produce 
energy and is a renewable resource. The Department signed a Memorandum 
of Understanding with the Department of Energy and U.S. Army Corps of 
Engineers on March 24, 2010 to increase communication between federal 
agencies and strengthen the long-term relationship among them to 
prioritize the generation and development of sustainable hydropower.
    And in 2011 Reclamation released the results of an internal study, 
the Hydropower Resource Assessment at Existing Reclamation Facilities, 
that estimated the Department could generate up to one million megawatt 
hours of electricity annually and create jobs by addressing hydropower 
capacity at 70 of its existing facilities. Last year Reclamation 
completed the second phase of its investigation of hydropower 
development. While the first phase focused primarily on Reclamation 
dams, the second focused on constructed Reclamation waterways such as 
canals and conduits, and estimated the Department could generate over 
365,000 megawatt hours of electricity annually by addressing hydropower 
capacity on 373 of its existing canals. In total, the two studies 
revealed that an additional 1.5 million megawatt-hours of renewable 
energy could be generated through hydropower at existing Reclamation 
sites.
    The budget allocates $1.1 million to increase clean renewable 
energy generation by exploring how renewable technologies including 
solar, small hydropower, and hydrokinetics can be integrated into 
Reclamation projects; by continuing the effort to optimize Reclamation 
hydropower projects to produce more energy with the same amount of 
water; by investigating hydro pump-storage projects that can help 
integrate large amounts of variable renewable resources such as wind 
and solar into the electric grid; and by working with Tribes to assist 
them in developing renewable energy sources.
    Question 25. How can the Department of the Interior assist in 
moving hydropower projects forward in their resource agency role in the 
Federal Energy Regulatory Commission licensing process? Please provide 
a list or a link to the list of hydropower projects currently under 
review in the Department.
    Answer. One of the goals of the MOU referenced in the previous 
response was to gather federal agencies involved in the permitting 
process, including the Department of the Interior and DOE's Federal 
Energy Regulatory Commission, to clarify the current processes for 
projects and development occurring at federal sites and facilities, and 
identify the most time-intensive and resource-intensive components of 
each process. DOE, Reclamation and the U.S. Army Corps of Engineers 
also held a collaborative workshop in June of 2010 to identify ways in 
which processes could be shortened by reducing unnecessary delay, 
streamlined, or simplified for appropriate projects. Reclamation and 
its regional offices, power and water customers, investors, and 
developers have conducted several meetings to identify ways to improve 
the lease of power privilege (LOPP) process.
    Reclamation developed a directive and standard in 2012 to provide 
standardized guidance for Reclamation offices and developers in 
permitting under the LOPP process. Since the signing of the MOU, there 
has been non-federal hydropower development interest and activity at 43 
Reclamation sites through FERC and LOPP. The MOU agencies are 
continuing to move forward under the framework of the MOU by developing 
a new list of action items to be initiated between 2013 and 2015.
    Attachment 1 to this document is a spreadsheet indicating projects 
under review in the Department. The first tab lists FERC projects under 
Reclamation review as of 7/2013, and includes all FERC projects on 
Reclamation facilities that are currently in development. The second 
tab lists all FERC projects under Departmental review, as indicated by 
DOI bureaus, as of 9/2012. This second list is currently being updated.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 26. In 2010, the State of Alaska adopted a goal of meeting 
50 percent of its energy needs with renewable energy by 2025. To help 
achieve this goal, in 2011 the Alaska State Legislature enacted 
legislation directing the Alaska Energy Authority (AEA) to undertake 
the licensing and development of the Susitna-Watana Hydro Project.
    To facilitate development of the Project, the State has requested 
BLM to open certain withdrawn federal lands in the Project area for the 
limited purpose of allowing title to those lands to be conveyed to the 
State. These lands previously were selected by the State of Alaska 
under the Alaska Statehood Act many years ago.
    It is my understanding that BLM previously has followed a process 
that did not require amendments to the relevant Resource Management 
Plan to facilitate Alaska Statehood Act conveyances at other proposed 
and existing hydroelectric projects in Alaska. It also is my 
understanding that BLM has raised questions about its ability to follow 
this approach with respect to the Susitna land conveyances. Finally, I 
understand that BLM has a fair amount of discretion under the law 
regarding the procedural steps it will take to open the lands for 
conveyance to the State.
    What is the likelihood that the administrative action of opening 
the Susitna lands for the limited purpose of allowing conveyance to the 
State may evolve into a time-consuming exercise that is likely to 
create greater risk of challenge and potentially delay development of 
the Project?
    Answer. The BLM's Alaska State Office is actively working with the 
State of Alaska and the Federal Energy Regulatory Commission to explore 
the possibility of opening the withdrawal and conveying state-selected 
lands related to the Susitna-Watana hydropower project. Several 
procedural and legal questions have been raised related to the request. 
The BLM is working to resolve these issues as quickly as possible.
    Question 27. Can you assure me that BLM will exercise it discretion 
in a manner that allows the Susitna lands to be conveyed in a timeframe 
that meets the State's schedule and that minimizes the risk of 
challenges and delay?
    Answer. As mentioned in the previous response, several procedural 
and legal questions have been raised related to the request to open the 
withdrawal. The BLM is working to resolve these issues as quickly as 
possible, and I have asked the BLM to keep you informed of the status 
of that effort.
    Question 28. Please describe the level of collaboration between the 
agencies of the Interior Department and the Department of State. How is 
this collaboration coordinated?
    Answer. The Department conducts international activities to 
accomplish its mission and support complementary U.S. foreign policy 
priorities. These cooperative activities include facilitating access to 
energy and mineral resources in an environmentally responsible manner; 
conservation and management of wildlife and other natural resources; 
protection of cultural resources; cooperation on indigenous affairs; 
and scientific research and monitoring of natural hazards such as 
volcanoes and earthquakes. The Department collaborates on these 
activities at all appropriate levels with the Department of State. Some 
interactions take place at the technical or field level. For example, 
DOI makes technical experts available for meetings with visiting 
foreign officials upon request of DOS, and coordinates with the 
relevant DOS and U.S. Embassy personnel when technical personnel carry 
out activities in foreign countries. As needed, DOI and DOS leadership 
coordinate to provide appropriate management and guidance. For 
instance, the Secretary of the Interior accompanied the Secretary of 
State to the 2011 meeting of the Arctic Council in Greenland, to 
highlight U.S. government priorities involving Arctic natural resource 
management.
    Question 29. The Bureau of Safety and Environmental Enforcement, 
U.S. Geological Survey, Bureau of Land Management, and other Interior 
Department agencies have international programs. Is there a Department-
level strategy to coordinate these various efforts?
    Answer. While there are clear linkages between some of the bureaus' 
international activities, such international activities are shaped by 
bureau program goals and through the budget process, in coordination 
with complementary foreign policy goals set by DOS. The Secretary has 
delegated the authority to coordinate DOI international activities to 
the Assistant Secretary for Policy, Management and Budget in order to 
maximize effectiveness and efficiency. By facilitating meetings and 
exchanges of information as needed, AS-PMB personnel help bureaus 
identify activities where they can work most effectively with each 
other, as well as with DOS and other federal agencies. Through this 
flexible approach, DOI and its bureaus work to ensure strategic 
coordination across their international activities.
    Question 30. Are any Interior Department personnel currently 
deployed in Afghanistan or Iraq?
    Answer. With the understanding that the term ``deployment'' means 
long-term stationing, the Department does not currently have personnel 
deployed in Afghanistan or Iraq. However, Departmental personnel do 
travel to those countries on occasion, pursuant to coordination with 
relevant agencies such as DOS and DOD.
    Question 31. Please provide an overview of the recent trends in 
Reclamation's maintenance backlogs, including trends over the past ten 
years.
    Answer. Reclamation's anticipated expenditures for major 
rehabilitation and replacement (MR&R) needs, which are focused on its 
aging infrastructure, have been relatively steady, totaling 
approximately $3 billion for a five-year time horizon. Reclamation 
began compiling its MR&R needs in 2008, which initially totaled $3.2 
billion. The most recent annual update, at the end of fiscal year FY 
2012, totaled $2.5 billion (five year outlook). Some of this decrease 
can be attributed to the completion of work activities in recent years, 
but most of the decrease is reflective of continued data verification 
and validation which has occurred over these years.
    These MR&R estimates have been compiled for all facilities based on 
current conditions, at the major facility level, and irrespective of 
the source of financing. It should be noted that of the FY 2012 
estimated total (five year outlook), approximately 50 percent was 
related to activities funded through annual appropriations.
    As defined in the amended Statement of Federal Financial Accounting 
Standard No. 6, ``deferred maintenance and repairs'' are maintenance 
and repairs that were not performed when they should have been or were 
scheduled to be and which are put off or delayed for a future period. 
Deferred Maintenance (DM) amounts have been reported by Reclamation 
since FY 1998 for reserved works assets only; no mission critical 
maintenance is deferred.
    DM is reported on the amount of maintenance that was scheduled, but 
not completed, and Reclamation does not ``project'' DM into the future. 
The trend over the last ten years has been for increasing DM.
    Question 32. What are the plans or expectations for each of these 
backlogs going forward (e.g., steady state, significant increases, 
decreases)?
    Answer. Reclamation has been constructing water, power and 
associated facilities for over 111 years, and many of these facilities 
now have an average age of over 50 years. Although Reclamation has 
lengthened the service lives of many of these facilities through its 
preventive maintenance activities, a number of these facilities are 
showing increased operations and maintenance needs.
    Question 33. What is the average amount of time it takes 
Reclamation to address a deferred maintenance project, from the time it 
is documented to the time the project is complete? (If exact statistics 
are not available, please provide an approximation.)
    Answer. Reclamation tracks and reports an accumulated deferred 
maintenance amount for its reserved works facilities, which, at the end 
of FY 2011, was slightly more than $128 million. A certain amount of DM 
is typical for the ``utility-type'' missions that Reclamation is 
responsible for, and there is no expectation that this amount will be 
significantly reduced or eliminated in the foreseeable future under the 
current budget climate. DM continues to be completed within reasonable 
timeframes, and Reclamation is adequately managing its accumulation of 
DM. The data on accumulation of DM on Mission Critical Assets 
demonstrates that, over time, DM identified in one year is addressed 
and generally becomes a smaller percentage of the overall outstanding 
DM in subsequent years.
    Question 34. In recent years, deferred maintenance needs doubled in 
one region (Mid Pacific, FY2007-FY2008) and tripled in another (Great 
Plains, FY2010-FY2011). Please provide a more detailed explanation for 
these major increases. Are similar increases expected for other regions 
in future years?
    Answer. The doubling of deferred maintenance from FY 2007 to FY 
2008 was almost entirely due to the Mid Pacific Region bringing 
outstanding DM work up to current prices. Between FY 2010 and FY 2011, 
the reported DM for the Great Plains Region tripled due to management 
decisions to reschedule and do more research to determine the best 
methods to complete the work. Similar increases are not expected, but 
are possible in the future as each region continues to evaluate the way 
maintenance is managed and addressed.
    Question 35. What is the status of Reclamation's loan guarantee 
program authorized under P.L 109-451? What actions has OMB requested as 
needing to be complete, as referenced in the FY2011 AMP, for this 
program to be implemented?
    Answer. P.L. 109-451 authorized loan guarantees for certain rural 
water supply projects; operation and maintenance of facilities 
authorized by or under contract pursuant to Reclamation law, and 
improvements to some existing Bureau of Reclamation water projects. 
Reclamation requested public comment on a proposed rule to implement 
the loan guarantees program published in the Federal Register on 
October 6, 2008. The proposed rule established criteria to determine 
eligibility of entities to use loan guarantees to fund Rural Water 
projects, as well as extraordinary maintenance and rehabilitation for 
existing federal facilities. Reclamation received comments from 14 
entities mainly dealing with: 1) the appropriate portion of loans to be 
guaranteed; and 2) using loan origination fees to offset appropriations 
needed to fund the program. The rule has not been finalized. Authority 
for the program will end in December 2016.
    Question 36. Why have no requests been made for the long-term 
extended repayment of extraordinary operations and maintenance costs 
(XOM) under Title IX of P.L. 111-11? Have any users approached the 
Administration or requested to use this funding? What actions could 
Congress take to facilitate usage of this program?
    Answer. Reclamation has received five requests for funding and 
repayment under Title IX. All five requests have been approved; 
however, only three of the requesting entities chose to move forward 
with the funding. Two of the entities opted to use their own funds for 
the necessary XOM costs after the request for Title IX funding and 
repayment had been approved. Reclamation is aware of an additional 
request that is in preparation at this time for XOM funding and 
repayment under Title IX.

   Responses of Hon. Sally Jewell to Questions From Senator Barrasso

    Question 1A. What is the current estimate for Reclamation's 
indicated maintenance backlog?
    Question 1B. What are the plans/expectations for each of these 
backlogs going forward (e.g., steady state, significant increases, 
decreases)?
    Answer. Reclamation's anticipated expenditures for major 
rehabilitation and replacement (MR&R) needs have been relatively 
steady, totaling approximately $3 billion for a five-year time horizon. 
Reclamation began compiling its MR&R needs in 2008, which initially 
totaled $3.2 billion. The most recent annual update, at the end of 
fiscal year FY 2012, totaled $2.5 billion (five year outlook). Some of 
this decrease can be attributed to the completion of work activities in 
recent years, but most of the decrease is reflective of continued data 
verification and validation which has occurred over these years.
    These MR&R estimates have been compiled for all facilities based on 
current conditions, at the major facility level, and irrespective of 
the source of financing. It should be noted that of the FY 2012 
estimated total (five year outlook), approximately 50 percent was 
related to activities funded through annual appropriations.
    As defined in the amended Statement of Federal Financial Accounting 
Standard No. 6, ``deferred maintenance and repairs'' are maintenance 
and repairs that were not performed when they should have been or were 
scheduled to be and which are put off or delayed for a future period. 
Deferred Maintenance (DM) amounts have been reported by Reclamation 
since FY 1998 for reserved works assets only; no mission critical 
maintenance is deferred. DM is reported on the amount of maintenance 
that was scheduled, but not completed, and Reclamation does not 
``project'' DM into the future. The trend over the last ten years has 
been for increasing DM.
    Reclamation has been constructing water, power and associated 
facilities for over 111 years, and many of these facilities now have an 
average age of over 50 years. Although Reclamation has lengthened the 
service lives of many of these facilities through its preventive 
maintenance activities, a number of these facilities are showing 
increased operations and maintenance needs due to age.
    Question 2. In the FY 2011 Asset Management Plan (AMP), Reclamation 
notes a total of $1.3 billion for ``Other RAX'' items (i.e., not 
deferred maintenance or dam safety). Is it accurate to say that 
Reclamation's indicated maintenance needs for non-Dam Safety projects 
are $1.3 billion?
    Answer. Other Replacements, Additions, and Extraordinary 
Maintenance (RAX) items are those items that have been identified and 
scheduled to be completed within the next five years but do not fall 
under any of the other three criteria. It would be accurate to say that 
``Other RAX'' items are non-Dam Safety projects.
    ``Indicated/identified maintenance'' is maintenance that is 
recognized as needing to be accomplished and may or may not be 
scheduled by the office responsible. Most indicated/identified 
maintenance on mission critical reserved works is identified either in 
Reclamation's annual budget process, or through advanced funding 
agreements from Reclamation's (mostly power) customers. Other indicated 
maintenance is identified through Reclamation's Facility Reviews and 
Review of O&M Program Examination of Associated Facilities.
    Question 3. Does the Bureau of Reclamation maintain a listing, 
including dollar amounts, of Reclamation's deferred and indicated 
maintenance needs at the project level? How much of this information is 
publicly available?
    Answer. Reclamation currently tracks deferred and indicated 
maintenance needs at the project level and is annually reported as part 
of Reclamation's Major Rehabilitation and Replacement (MR&R) needs. 
Reclamation's 2012 MR&R needs are approximately $2.5 billion.
    Reclamation also reports the deferred maintenance (DM) five year 
plan as required by the Department of the Interior's Budget Guidance 
Attachment G. The five year plan only lists those projects reported in 
the MR&R that have been scheduled to be completed within the five year 
timeframe. Depending on the reporting period, some projects may fall 
before or after the reporting time period and therefore would not be 
included in the five year plan.
    Question 4. In recent years, deferred maintenance needs doubled in 
one region (Mid Pacific, FY2007-FY2008) and tripled in another (Great 
Plains, FY2010-FY2011). Please provide a more detailed explanation for 
these major increases. Are similar increases expected for other regions 
in future years?
    Answer. The doubling of deferred maintenance from FY 2007 to FY 
2008 was almost entirely due to the Mid Pacific Region bringing 
outstanding DM work up to current prices. Between FY 2010 and FY 2011, 
the reported DM for the Great Plains Region tripled due to management 
decisions to reschedule and do more research to determine the best 
methods to complete the work. Similar increases are not expected, but 
are possible in the future as each region continues to evaluate the way 
maintenance is managed and addressed.
    Question 5. How is ``indicated maintenance'' tracked?
    Answer. ``Indicated/identified maintenance'' is maintenance that is 
recognized as needing to be accomplished and may or may not be 
scheduled by the office responsible. Most indicated/identified 
maintenance on mission critical reserved works is identified either in 
Reclamation's annual budget process, or through advanced funding 
agreements from Reclamation's (mostly power) customers. Other indicated 
maintenance is identified through Reclamation's Facility Reviews and 
Review of O&M Program Examination of Associated Facilities.
    Question 6A. Is Reclamation's Facility Reliability Rating (FRR) 
information publicly available?
    Question 6B. Where would the public find this information?
    Answer. The percentage of water infrastructure in good condition, 
as measured by the FRR, is available to the public. The details of the 
FRR criteria and scoring specific to each facility are available only 
within Reclamation.
    The percentage of water infrastructure in good condition, as 
measured by the FRR, can be found at: http://www.doi.gov/bpp/upload/
DOI_FY2011-FY2016_StrategicPlan.pdf
    Question 7. What is the process for tracking and reviewing 
maintenance needs on transferred works, and how does it differ from the 
process for reserved works?
    Answer. Essentially, the operating entities for transferred works 
facilities are responsible for the day-to-day tracking and reviewing 
(and funding) of related maintenance needs. As part of Reclamation's 
oversight responsibilities of these facilities, Reclamation is aware of 
general performance of routine maintenance activities and most 
extraordinary maintenance needs through the MR&R estimates.
    These MR&R estimates are compiled for all facilities based on 
current conditions, at the major facility level (e.g., dam, canal 
system, power plant, major pumping plant, pipeline, etc.), and 
irrespective of the source of financing (e.g., appropriated monies, 
power financing, funding agreements, revolving funds, non-appropriated 
funds used by operating entities of transferred works, etc.).
    Question 8A. What portion of transferred works do not track 
performance data for the Federal Real Property Profile (FRPP)?
    Question 8B. Are there any estimates as to the cost of compliance 
with these metrics?
    Answer. Reclamation's Federal Real Property Profile (FRPP) 
reporting is at the major asset level for transferred and reserved 
works. The metrics for these assets are computed and reported as part 
of the FRPP. The estimate of cost of compliance is currently not 
available.
    Question 9A. Has the Administration considered how it could improve 
its approach to tracking and addressing maintenance needs at 
transferred works?
    Question 9B. What options are available to you to address 
maintenance needs at transferred works?
    Answer. It is important to note that much of the O&M funding 
responsibilities of Reclamation's assets lies with our project 
beneficiaries and those operating entities that O&M Reclamation's 
transferred works facilities. For some operating entities and project 
beneficiaries, rehabilitation and replacement needs may exceed 
available resources. In particular, many smaller irrigation or water 
conservancy districts are unable to fund these needs in the year 
incurred absent long-term financing assistance. To address this issue, 
the Administration is currently developing a strategy for appropriate 
implementation of a program of loan guarantees, as authorized in P.L. 
109-451, to assist water users in financing costly rehabilitation and 
replacement of project facilities. We are also exploring opportunities 
for utilization of the authority provided under P.L. 111-11 to allow 
extended repayment with interest of extraordinary (non-routine) 
maintenance costs on project facilities. Water users are currently 
required by Reclamation law to pay these costs, often substantial, in 
advance.
    Question 10. Page 28 of the AMP notes that indicated maintenance is 
identified in Reclamation's annual budget process, through examination 
of facilities, or arrangements with customers. To what extent does 
Reclamation track indicated maintenance for transferred works?
    Answer. Most indicated/identified maintenance on mission critical 
reserved works is identified either in Reclamation's annual budget 
process, or through advanced funding agreements from Reclamation's 
(mostly power) customers. For transferred works, where maintenance 
needs are identified as part of formal O&M recommendations, which 
result from facility reviews, such recommendations are tracked until 
completion through Reclamation's electronic database tracking system 
(i.e., Dam Safety Information System.)
    It is important to note that much of the O&M funding 
responsibilities of Reclamation's assets reside with our project 
beneficiaries and those operating entities that O&M our transferred 
works facilities.
The following questions were submitted on April 8th during your 
        confirmation process. With respect to each of these questions, 
        you responded that it would be ``premature and inappropriate'' 
        to answer until you were confirmed.
    Question 11. What specific steps, if any, will you take to expedite 
the Department's preparation and completion of environmental impact 
statements for large scale coal, oil and gas, and uranium projects on 
Federal public lands?
    Answer. The Department's view has been that in most cases existing 
environmental review provisions do not unduly delay project development 
and, at the same time, provide for important public input into the 
process and ensure environmental health and safety in the management of 
the public lands. However, Departmental staff understand the value of 
expedient environmental review and its importance for efficient 
decision making by both businesses and government. The leasing reforms 
that were implemented in 2010 established an orderly, transparent, and 
environmentally sound process for developing resources on public lands 
in a manner that has maintained robust leasing and permitting. These 
reforms focused on increasing predictability and certainty for 
stakeholders, including industry, and restoring needed balance with 
comprehensive upfront analysis added to the development process. We 
will continue to work toward increasing efficiency and decreasing the 
time necessary for completion of these reviews.
    Question 12A. Do you believe States and local governments which 
would be impacted by settlement agreements between the Department and 
environmental groups should have a say in such agreements?
    Question 12B. Will you agree not to enter into any settlement 
agreement unless the States and local governments which would be 
impacted by the agreement are party to the agreement?
    Answer. Unfortunately, litigation is a common occurrence when 
implementing the numerous statutes under our jurisdiction. We agree 
that the Department's resources are best spent on implementing these 
statutes than on litigation. However, often settlement is the most 
prudent course. Much of our litigation involves missed mandatory 
statutory deadlines. In each of these cases, before any settlement is 
entered, its merits are carefully reviewed, in conjunction with our 
colleagues at the Department of Justice, to ensure it is in the 
interest of the United States. In such settlements, we do not commit to 
any substantive outcomes, but rather only to making otherwise 
statutorily required determinations by a date certain. All of these 
agreements are approved by a court. Before any determination called for 
in a settlement agreement has regulatory effect, it is subject to 
public notice and comment, including from States and local governments 
if they so desire.
    Question 13. Will you commit to supporting the principles of S. 
258, the Grazing Improvement Act to streamline the renewal process for 
grazing permits and extend the term of a grazing permit from 10 to 20 
years?
    Answer. As stated in the Department's statement at the April 2013 
hearing on this legislation, the Department shares the interest in 
identifying opportunities for increasing efficiencies in public land 
grazing administration and for finding ways to make permit renewal less 
complex, costly, and time-consuming. The Department also supports the 
concept of having the flexibility to issue, in certain circumstances, 
longer term permits. The Department supports a solution that achieves 
these goals without limiting the BLM's ability to provide for 
appropriate environmental review and public involvement, critical 
components of the BLM's multiple-use management of the public lands.
    Question 14. What do you plan to do, or what specific actions will 
you take to ensure the Department complies with the National 
Environmental Act in a more timely fashion? What specific ways is the 
Administration proposing to ``modernize NEPA'' as you put it?
    Answer. As noted in the response to question 11, the Department's 
view has been that in most cases existing environmental review 
provisions do not unduly delay project development and, at the same 
time, provide for important public input into the process and ensure 
environmental health and safety in the management of the lands that 
belong to them. However, we understand the value of expedient 
environmental review and its importance for efficient decision-making 
by both businesses and government.
    The leasing reforms that were implemented in 2010 established an 
orderly, transparent, and environmentally sound process for developing 
resources on public lands in a manner that has maintained robust 
leasing and permitting. These reforms focused on increasing 
predictability and certainty for stakeholders, including industry, and 
restoring needed balance with comprehensive upfront analysis added to 
the development process. We will continue to work toward increasing 
efficiency and decreasing the time necessary for completion of these 
reviews. The Administration, through the Council on Environmental 
Quality, has made public a number of proposals to strengthen and 
modernize NEPA. Detailed discussions of those proposals and related 
information can be found at: http://www.whitehouse.gov/administration/
eop/ceq/initiatives/nepa. Unfortunately, the impacts of the 
sequestration will be unavoidable and will result in difficult choices 
in future budgets.

     Responses of Hon. Sally Jewell to Questions From Senator Risch

    Question 1. If legislation is not enacted extending BLM's 
authority, will BLM have to stop private sales of helium from the 
reserve when the BLM makes its final payment to the U.S. Treasury 
sometime around October?
    Answer. The House and Senate recently passed H.R. 527, which 
prevents termination of this important program and allows the Bureau of 
Land Management to continue implementing the program, and the enrolled 
bill was signed by the President on October 2, 2013.
    Question 2. Since the reserve represents about half of U.S. helium 
supply the concern is that if the reserve closes, a helium shortage 
would follow. Does the BLM have emergency authority to sell helium to 
prevent an economic disruption or would Congress have to act first?
    If Congress does not act, will BLM still have the authority to 
operate the reserve for federal use? If so, how will BLM fund the 
operations?
    Answer. As noted in response to the previous question, enrolled 
bill H.R. 527 was signed by the President on October 2, 2013.

     Responses of Hon. Sally Jewell to Questions From Senator Scott

                           OFFSHORE ATLANTIC

    The investment to collect seismic data is only worth something to 
energy producers if there is the future prospect of being able to lease 
in the areas where new data shows there are resources. When President 
Obama came into office nearly all off America's offshore was available 
to lease. Unfortunately, the President's restrictive 5-year lease plan 
eliminated the Mid and South Atlantic offshore areas from the 2012-2017 
plan and only left 15 percent of America's offshore available to lease.
    Question 1a. Given that we still need to collect seismic data in 
these areas to update our current resource estimates, do you think that 
government, through the reorganization of the MMS and the 
implementation of new regulations--and the industry, through the 
development of new and the creation of the Center for Offshore Safety--
have made sufficient progress to consider future leasing in the Mid and 
South Atlantic offshore areas?
    Answer. By applying modern seismic interpretation techniques to 
existing data and incorporating more recent information from 
geologically analogous offshore regions worldwide, BOEM has made 
significant progress in updating their resource estimates as reflected 
in their 2011 National Resource Assessment. BOEM is proceeding with a 
region-specific strategy in the area that focuses on the need to update 
information in order to inform future decisions about whether and, if 
so, where leasing would be appropriate. As part of that strategy, the 
bureau is working to complete a Programmatic Environmental Impact 
Statement evaluating the potential environmental impacts of proposed 
geological and geophysical activities in the Mid and South Atlantic. 
Completion of the PEIS will inform future decisions about whether 
leasing in the Atlantic would be appropriate and, if so, where such 
leasing should take place. The current goal is to complete the PEIS by 
the end of the year.
    Question 1b. If so, when will you direct that the development of a 
new 5-year Plan begin?
    Answer. In order to comply with all statutory requirements and have 
a new program in place July 1, 2017, we envision we will begin the 
process in late 2014 or early 2015.
    Question 1c. If not, what else do you see that needs to be done 
(outside of collecting new seismic data)?
    Answer. Collection of new seismic data is not a pre-requisite to 
developing the next Five Year Program. BOEM has begun informal efforts 
to put in place the data, procedures, and agreements necessary to begin 
the preparation of the next Five Year Program. One example is BOEM's 
work with the Department of Defense on complex issues relating to 
identifying and mitigating multiple or conflicting use issues.

                         NATIONAL OCEAN POLICY

    On August 21, 2012 John Holdren and Nancy Sutley sent a 
``Memorandum for the heads of departments and agencies'' with the 
subject ``National Ocean Policy Implementation Guidance for the FY2014 
Budget'' to your agency and others instructing DOI to present to OMB, 
along with their FY14 budget proposals, ``an explanation of their 
continuing efforts and plans to comprehensively support the goals and 
objectives of the National Ocean Policy through existing ocean, 
coastal, and Great Lakes programs.''
    Question 2a. Did you make such a presentation to OMB and include 
the National Ocean Policy budget explanation?
    Answer. The Department did make a presentation.
    Question 2b. If so, please provide a copy of DOI's National Ocean 
Policy budget explanation as requested in the memo.
    Answer. The budget explanation and related material are internal, 
deliberative Executive Branch communications. However, an explanation 
of most of the programs addressed in this memo, and some program 
accomplishments, are contained within the Federal Ocean and Coastal 
Activities Report for FY 2010-11, which was transmitted to Congress on 
July 19, 2013.
    Question 2c. How many people within DOI worked to draft this 
explanation? If not, why did you not make such a presentation to OMB?
    Answer. One person from each of the participating bureaus (BLM, 
BOEM, BSEE, FWS, NPS, OIA and USGS) selected applicable information 
from data already assembled for the budget development process, 
accomplishment reports and similar existing sources. One person at the 
Department assembled the information into the memorandum.
    Question 3. The same memo references the importance of ``Regional 
Efforts'' in implementing the National Ocean Policy. What efforts if 
any have been made by DOI to coordinate, work with or partner with 
local entities in South Carolina and the Southeast as a whole, 
including but not limited to State and Tribal entities and authorities 
and local and national non-governmental organizations? If none, are 
there currently plans for any such efforts in the future?
    Answer. The Department's work related to South Carolina under the 
National Ocean Policy is largely conducted through the Governors' South 
Atlantic Alliance (the Alliance) comprised of North Carolina, South 
Carolina, Georgia, and Florida. These States have joined together to 
work on various ocean- and coastal-related issues, with an emphasis on 
Clean Coastal and Ocean Waters, Working Waterfronts, Disaster Resilient 
Communities, and Healthy Ecosystems. The Department has been a 
supporting partner to the Alliance since its inception four years ago, 
and provides support at all levels of the Alliance with personnel from 
the USGS, FWS, and NPS stationed in those States. These bureaus also 
cooperate directly with the State of South Carolina, tribes and 
stakeholders on many programs, including those related to ocean and 
coastal areas, but as this is part of their normal operations, the 
Department does not track those efforts.
    Question 4. How many people at the Department of the Interior are 
working on implementation of National Ocean Policy? How much of their 
time is dedicated to working on the National Ocean Policy? Have any 
additional hires at DOI been made to specifically work on or coordinate 
with others who are working on the National Ocean Policy?
    Answer. A large number of individual employees work on actions 
related to implementation of the National Ocean Policy as part of their 
regular work. The actions to implement the Plan on which the Department 
is engaged, as set out in the May 2013 Implementation Plan, are all 
directly related to the statutory responsibilities and on-going work of 
the Department and its participating bureaus. Many of these actions are 
work long underway which is now being better coordinated with other 
agencies, resulting in more productive use of resources. Because of 
this, we do not know nor could we readily determine how many employees 
are involved. The Department has not hired anyone to work specifically 
on or to coordinate with others who are working on the National Ocean 
Policy, although the Department's Ocean, Coastal and Great Lakes 
Activities office has played a significant supporting role in this 
matter.
    Question 5. In your view, what are the immediate and long term 
goals for DOI in the implementation of the National Ocean Policy?
    Answer. The Department supports the long-term goals of the National 
Ocean Policy as set out in Executive Order 13547. These are to ensure 
the protection, maintenance, and restoration of the health of ocean, 
coastal and Great Lakes ecosystems and resources, enhance the 
sustainability of ocean and coastal economies, preserve our maritime 
heritage, support sustainable uses and access, provide for adaptive 
management to enhance our understanding of and capacity to respond to 
climate change and ocean acidification, and coordinate with our 
national security and foreign policy interests. The intermediate goals 
of the Policy are set out in the Implementation Plan, and are focused 
on several priority areas--the Ocean Economy, Safety and Security, 
Coastal and Ocean Resilience, Local Choices, and Science and 
Information needed to support those priorities.
    Question 6. How has the implementation of the National Ocean Policy 
impacted or influenced the current programmatic EIS being conducted in 
the Atlantic for the assessment of the oil and natural gas resources in 
the OCS?
    Answer. The development of the Programmatic EIS incorporates the 
guidance of the National Ocean Policy Implementation Plan. It takes an 
ecosystem based approach to assessment of environmental resources, is 
fully transparent, provides for stakeholder input through NEPA public 
review opportunities, and makes use of the best available science and 
data to inform the analysis. It also increases efficiencies in 
decision-making as the Programmatic EIS was developed to meet the NEPA 
environmental analysis needs for both BOEM and the National Marine 
Fisheries Service, thereby avoiding duplication of efforts and 
generating cost savings.
    Question 7. How do you see implementation of the National Ocean 
Policy impacting the potential for portions of the South Atlantic 
planning area to be included in the next 5-year offshore leasing plan?
    Answer. The marine planning information in the National Ocean 
Policy Implementation Plan lays the groundwork for all stakeholders to 
be involved in identifying multiple ocean uses and resources in the 
South Atlantic planning area. BOEM anticipates the affected States and 
South Atlantic Regional Planning Body, when established by the region, 
to play important roles in providing local perspective in future 
planning for this area.

    Responses of Hon. Sally Jewell to Questions From Senator Portman

    Question 1. I have been told that on October 7, 2013, barring 
Congressional action to authorize the continuation of the Helium 
Production Fund, BLM will not be able to operate or maintain the 
Federal Helium Reserve. Is this your understanding?
    Answer. The House and Senate recently passed H.R. 527, which 
prevents termination of this important program and allows the Bureau of 
Land Management to continue implementing the program, and the enrolled 
bill was signed by the President on October 2, 2013.
    Question 2. Are there administrative actions which could be taken 
that would allow BLM to continue to deliver crude helium to refiners 
for processing and delivery for end market users?
    Answer. As noted in response to the previous question, enrolled 
bill H.R. 527 was signed by the President on October 2, 2013.
    Question 3. Do you agree that the upcoming centennial is an 
excellent opportunity to engage all of those who utilize and benefit 
from our national parks in helping prepare for their future?
    Answer. The centennial of the National Park Service in 2016 is an 
exciting opportunity to engage all American's, including park visitors, 
the public in general, and local civic and business communities.
    Question 4. How does the Department intend to engage the private 
sector in the upcoming NPS centennial?
    Answer. The NPS is engaging a broad array of stakeholders in its 
planning for the centennial, and recently established a Centennial 
Advisory Committee of the National Park System Advisory Board, 
including representative stakeholders for gateway communities, local 
and national business operators, education and youth program partners, 
park friends groups, and advocate organizations for conservation, 
preservation and recreation. The task of this committee is to offer 
guidance and recommendations to the National Park System Advisory 
Board, and by extension, the Secretary of the Interior and the Director 
of the NPS, on centennial strategies, products and programs that 
celebrate the national park idea and its growing value to society.
    In addition, the National Park Foundation, the national 
philanthropic partner of the National Park Service is also engaging the 
private sector in planning and a range of opportunities for support and 
engagement for the centennial.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                         Arctic Slope Regional Corporation,
                     Inupiat Community of the Arctic Slope,
                                                      May 15, 2013.
Hon. Sally Jewell,
Secretary of the Interior, Office of the Secretary, U.S. Department of 
        the Interior, 1849 C Street, NW, Room 6156, Washington, DC.
    Dear Secretary Jewell:

    On behalf of the State of Alaska and the undersigned North Slope 
governments and entities, we want to offer our congratulations on your 
recent confirmation as Secretary of the Interior. We look forward to 
working with you on the Department of Interior's wide variety of 
activities in Alaska, and we want to continue the efforts to strengthen 
the relationship between your department, the State of Alaska, the 
North Slope Borough and other North Slope communities and stakeholders. 
To accomplish this, an open, constructive dialogue will be critical.
    In that spirit, we are writing to you to inform you of our strong 
objections to the Department of the Interior's budget proposal, under 
which Alaska's 50-percent share of revenue from oil and natural gas 
activity in the National Petroleum Reserve-Alaska (NPR-A) would be 
``temporarily'' diverted to pay for cleaning up more than 100 abandoned 
oil wells drilled decades ago by the federal government and for 
completing land conveyances owed to the State of Alaska and Alaska 
Natives.
    From 1944 to 1981, the federal government drilled 136 wells in 
what's now the NPR-A. The Bureau of Land Management (BLM) is the 
federal custodian of those wells, and is obligated to plug the wells to 
prevent damage to the environment. Only 18 of the wells have been 
plugged, and seven of those were taken care of by the North Slope 
Borough, not by BLM. The remaining wells remain in various conditions 
of non-compliance with State law.
    The federal government's land conveyance responsibilities grow out 
of the Alaska Statehood Act and the Alaska Native Settlement Claims Act 
of 1971, and this mandate has been reinforced by further federal law, 
including the Alaska Land Transfer Acceleration Act of 2004. Your 
Department's 2014 funding proposal includes just $17 million-nearly a 
50 percent cut from 2012 funding levels-for land conveyances. At this 
annual funding level, BLM estimates it will take as long as 80 years to 
finish patenting the conveyances.
    Alaska's share of NPR-A revenues are allocated to the State of 
Alaska's NPR-A Impact Aid Fund. Deposits into the Impact Aid Fund have 
declined steadily as many of the leases in the NPR-A have been 
relinquished during the last four years. Impact Aid funded grants in FY 
2012 totaled just $3 million dollars, and FY 2013 grants totaled $4.7 
million. In FY 2014, we believe the State of Alaska will receive 
approximately $3.8 million, dropping to around $3.4 million in FY 2015.
    The majority of NPR-A Impact Aid grant funding goes to four 
communities located within the NPR-A-Barrow, Nuiqsut, Wainwright and 
Atqasuk-which rely heavily on Local Government Operation grants to 
sustain their city governments. The four Local Government Operational 
grants total approximately $3.1 million annually, subject to NPR-A 
Impact Aid funding. These projects support operations and maintenance 
costs necessary to operate the local governments.
    The Department's proposal to divert NPR-A revenues owed to the 
State will result in the elimination of NPR-A Impact Aid payments to 
the four NPR-A villages that depend on NPR-A revenues to operate. In 
2010, the North Slope Borough completed a comprehensive Economic 
Profile and Census project in our region. The results indicated that 
26.5% of our residents are unemployed and 49.4% are underemployed. If 
NPR-A revenue sharing payments cease, our villages and our residents 
will be harmed.
    Based on figures cited in the Anchorage Daily News, the Department 
has expended $86 million to address 18 legacy wells ($4.77 million per 
well). Current NPR-A Impact Fund deposits are less than $4 million per 
year, and there are more than 110 additional wells to address-that 
means the ``temporary'' halt in revenue sharing payments proposed by 
the Department would end in about 150 years if all revenues are 
diverted to the Legacy Well cleanup program and no funding is committed 
to State and Native land conveyances.
    We cannot understand why the Department would choose to deprive our 
villages and our residents of Impact Aid grant funds, which are 
specifically authorized by Congress to address the impacts of oil and 
gas development in the region. Moreover, NPR-A revenues cannot support 
either the Legacy Well cleanup program or the Alaska Land Conveyance 
program, as proposed in your budget. We hope BLM will consider other 
solutions to fulfill its federal commitments to Alaska and to our 
people.
    We are committed to working with you on this and other issues of 
importance to Alaska, and look forward to positively developing our 
relationship.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
